<html>
<title> - THE NEW FEDERAL FARM BILL FIELD HEARING FROM STEWARTVILLE, MINNESOTA</title>
<body><pre>[Senate Hearing 107-878]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-878

                       THE NEW FEDERAL FARM BILL

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                            AUGUST 20, 2001

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov

                                 ______

85-326              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            JESSE HELMS, North Carolina
THOMAS A. DASCHLE, South Dakota      THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
BLANCHE L. LINCOLN, Arkansas         PAT ROBERTS, Kansas
ZELL MILLER, Georgia                 PETER G. FITZGERALD, Illinois
DEBBIE A. STABENOW, Michigan         CRAIG THOMAS, Wyoming
BEN NELSON, Nebraska                 WAYNE ALLARD, Colorado
MARK DAYTON, Minnesota               TIM HUTCHINSON, Arkansas
PAUL DAVID WELLSTONE, Minnesota      MICHEAL D. CRAPO, Idaho

              Mark Halverson, Staff Director/Chief Counsel

            David L. Johnson, Chief Counsel for the Minority

                      Robert E. Sturm, Chief Clerk

              Keith Luse, Staff Director for the Minority

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

The New Federal Farm Bill........................................    01

                              ----------                              

                        Monday, August 20, 2001
                    STATEMENTS PRESENTED BY SENATORS

Dayton, Hon. Mark, a U.S. Senator from Minnesota.................    01
Gutknecht, Hon. Gil, a Representative in Congress from Minnesota.    01
Wellstone, Hon. Paul, a U.S. Senator from Minnesota..............    02
                              ----------                              

                               WITNESSES

Adams, Nancy, Le Roy, Minnesota..................................    24
Ault, Dwight, Austin, Minnesota..................................    42
Austin, Robert M., New Prague, Minnesota.........................    43
Behounek, Ronald, Hayfield, Minnesota............................    40
Biederman, Bruce, Grafton, Iowa..................................    49
Biel, Eunice, Dairy Farmer, Harmony, Minnesota...................    22
Bowman, Bert, Eden Prairie, Minnesota............................    48
Collins, Barbara J., Legal Services Advocacy Project, St. Paul, 
  Minnesota......................................................    19
Dale, Roger, Hanley Falls, Minnesota.............................    44
Daley, Janice, Grain Farmer, Lewiston, Minnesota.................    28
Durst, Ron, on behalf of Associated Milk Producers, Inc..........    32
Everett, Les, Water Resources Center, University of Minnesota....    37
Green, Larry, Fulda, Minnesota...................................    43
Hansen, Rick, Inver Grove Heights, Minnesota.....................    39
Hanson, Amber, Racine, Minnesota.................................    18
Hanson, Brian, Racine, Minnesota.................................    50
Harrington, Bishop Bernard J.,...................................    03
Henning, Tim, Lismore, Minnesota.................................    49
Hoscheit, Tom, Caledonia, Minnesota..............................    34
Joachim, Gary, Claremont, Minnesota, on behalf of Minnesota 
  Soybean 
  Growers Association............................................    47
Ladd, David, on behalf of Farm Credit Services...................    04
Landkamer, Colleen, Blue Earth County Commissioner, Mankato, 
  Minnesota......................................................    18
Larson, Larry, Sargeant, Minnesota...............................    38
Mandelko, Delbert, President, Minnesota Milk Producers 
  Association....................................................    06
Meter, Ken, Crossroads Resource Center, Minneapolis, Minnesota...    10
McGrath, Mike, on behalf of the Minnesota Project................    07
McLaughlin, Marcie, on behalf of America's State Rural 
  Development Council............................................    08
McMillin, Bill, Dairy Farmer, Kellog, Minnesota..................    51
Monson, John, State Executive Director, Minnesota Farm Service 
  Agency, St. Paul, Minnesota....................................    14
Mueller, Mike, Winthrop, Minnesota...............................    40
Nelson, Rod, Chatfield, Minnesota................................    53
Noble, Linda, Organic Dairy Farmer, Kenyon, Minnesota............    21
Noble, Mike, Crop and Livestock Producer, Kenyon, Minnesota......    31
Ormsby, Victor, Winona, Minnesota................................    33
Otremba, Mary Ellen, State Representative, State of Minnesota....    15
Paul, Gene, Faribault County, Delavan, Minnesota.................    20
Petersen, Chris C., Vice President, Iowa Farmers Union, Clear 
  Lake, Iowa.....................................................    45
Peterson, Sever, Eden Prairie, Minnesota.........................    11
Predmore, Larry, Rochester, Minnesota............................    50
Prigge, Walt, Byron, Minnesota...................................    45
Purdhim, Rev. Chuck, (retired), United Methodist Church, Brooklyn 
  Center, Minnesota..............................................    25
Redig, Lorraine, Winona, Minnesota...............................    34
Reiman, Lewis, Utica, Minnesota..................................    27
Riddle, Jim, Winona, Minnesota...................................    23
Ristau, Kevin, Jobs Now Coalition, St. Paul, Minnesota...........    26
Ritchie, Niel, Institute for Agriculture and Trade Policy, 
  Minneapolis, 
  Minnesota......................................................    27
Schacht, Al, Zumbro Falls, Minnesota.............................    52
Scheevel, Kenric, State Senator, State of Minnesota..............    16
Scheidecker, Kevin, Fillmore Soil and Water Conservation 
  District, Preston, Minnesota...................................    30
Specht, Phil, Dairy Farmer, McGregor, Iowa.......................    25
Speltz, Keith, Dairy Farmer, Southeast Minnesota.................    36
Storm, Sister Kathleen, Mankato, Minnesota.......................    29
Strom, Donovan, Fountain, Minnesota..............................    48
Tumbleson, Gerald, Sherburn, Minnesota...........................    37
Upton, Barbara, Fountain, Minnesota..............................    41
Winter, Ted, State Representative, State of Minnesota............    14
Zimmerman, Margaret, Waseca, Minnesota...........................    36
                              ----------                              

                                APPENDIX

Prepared Statements:
    Collins, Barbara J...........................................    81
    Daley, Janice................................................    96
    Everett, Les.................................................   111
    Hansen, Rick.................................................   118
    Hanson, Amber................................................    80
    Harrington, Bishop Bernard J.................................    58
    Joachim, Gary................................................   135
    Ladd, David..................................................    61
    Mandelko, Delbert............................................    64
    McGrath, Mike................................................    66
    McLaughlin, Marcie...........................................    70
    McMillin, Bill...............................................   140
    Meter, Ken...................................................    74
    Mueller, Mike................................................   124
    Noble, Linda.................................................    84
    Noble, Mike..................................................   105
    Petersen, Chris C............................................   127
    Peterson, Sever..............................................    78
    Redig, Lorraine..............................................   109
    Riddle, Jim..................................................    86
    Ristau, Kevin................................................    91
    Ritchie, Niel,...............................................    93
    Schacht, Al..................................................   141
    Scheidecker, Kevin...........................................   100
    Storm, Sister Kathleen.......................................    99
    Zimmerman, Margaret..........................................   110
Document(s) Submitted for the Record:
    AgStar Financial Services, ACA...............................   173
    Beckel, John F...............................................   172
    Carnes, Marilyn..............................................   151
    Children's Defense Fund - Minnesota; Jim Koppel..............   182
    Encouraging Family Farms: a Policy Proposal; Joe Malacek.....   164
    Letter to Senator Mark Dayton by Gyles W. Randall............   176
    Levins, Dick.................................................   154
    Minnesota Association of Soil and Water Conservation 
      Districts; Richard Zupp....................................   155
    Minnesota Food Share; Barbara Thell..........................   162
    Petition Supporting a New Farm Bill..........................   148
    Present-Day Agriculture in Southern Minnesota -- Is it 
      Sustainable? by Gyles W. Randall...........................   178
    Oestreich, Clifford..........................................   161
    Wood, Bob and Eloda..........................................   159

                              ----------                              


 
  THE NEW FEDERAL FARM BILL FIELD HEARING FROM STEWARTVILLE, MINNESOTA

                              ----------                              


                        MONDAY, AUGUST 20, 2001

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1 p.m., at the 
American Legion, 1100 Second Avenue, N.W., Stewartville, 
Minnesota, Hon. Mark Dayton, presiding.
    Present or submitting a statement: Senators Dayton and 
Wellstone.

  STATEMENT OF HON. MARK DAYTON, A U.S. SENATOR FROM MINNESOTA

    Senator Dayton. I am going to gavel the hearing of the 
Senate Agriculture Committee officially to order. I am Mark 
Dayton, Senator, and I am chairing this hearing. Our format is 
we have Congressman Gutknecht, Senator Wellstone, and myself 
here. We have some distinguished members of the Minnesota 
Legislature. I would like them to introduce each other in a 
little bit.
    We will give a couple of minutes for those who may still be 
arriving to come in. We have a very distinguished panel of 
seven individuals whom we are going to take formal testimony 
from. We have asked them to limit their remarks to 
approximately 3 minutes apiece and submit any additional 
testimony for the record, which they will be able to do. Then 
we will open it right up to any of you who wish to testify or 
speak for up to 2 minutes apiece. In Worthington a week ago, we 
had 45 individuals to testify. We stayed a half-hour longer. We 
were happy to do so, but we really need everybody to stick to 
that kind of time limit so we can have everybody who wants to 
be heard have the opportunity to speak today.
    With that I am going to forego my opening remarks and turn 
it over in the spirit of bipartisanship and bicameralism to 
Representative Gil Gutknecht. We are really, really glad you 
are here today. Thank you very much.
    Mark Kennedy joined us in Worthington, and these are issue 
where we all worked together and agreed to have the Minnesota 
delegation on the House and Senate Agricultural Committee, and 
our job is to work for all of you.

 STATEMENT OF HON. GIL GUTKNECHT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Gutknecht. Thank you. Well, I am going to be very 
brief. I want to thank Senators Wellstone and Dayton for 
putting this meeting together. It is the first time I have 
actually sat on the same side of the table at a Senate hearing. 
This is an official hearing. We have a stenographer here. It is 
easy sometimes for people who live in cities or even in suburbs 
to forget how important agriculture is to our Minnesota 
economy. It really is the backbone of Minnesota's economy, and 
the last 3 or 4 years have been very, very difficult. We have 
recognized that in Washington with emergency payments. Most of 
us recognize that that is not the real answer. What most of you 
want is a decent price from the marketplace. We need to work 
together in Washington to come up with the next Farm bill that 
allows farmers to prosper during good times and survive during 
some of those difficult times. We are going to have some 
disagreements in Washington between Republicans and Democrats 
and between the House and the Senate, but the one thing we do 
agree on is the overall goal, and that is, we want an 
agricultural economy that allows young people to do something 
that we sometimes take for granted, and that is, to go out 
there and take a chance at it. We simply can't afford to lose 
an entire generation of young farmers.
    I thank you for holding this hearing. Looking at the 
distinguished list of people who are going to be testifying, I 
look forward to the testimony today to begin. Thank you for 
coming.
    Senator Dayton. Thank you, Congressman. Now Senator 
Wellstone is joined with me on the Senate agriculture 
committee.

STATEMENT OF HON. PAUL WELLSTONE, A U.S. SENATOR FROM MINNESOTA

    Senator Wellstone. Thank you, Mark. I too will be very 
brief. I want to say three things. First of all, I want to 
thank all of you for being here. I see a lot of people that I 
have known over the years. Quite often we have known each other 
through farm struggles. I thank you for being here today 
because we are going to be writing the bill this fall. I 
believe all the way from my head to my toe but, most 
importantly of all, Bishop, in my heart and my soul that we 
need a new farm bill. We need a decent price for our 
independent producers. We need to focus on land conservation 
and the land stewardship and the environment. We need to have 
antitrust action. We need to go after these conglomerates. We 
need to have some competition. We need to have an energy 
section that focuses on renewables and biodiesel and clean 
fuels, small technology and clean technology and small 
business. We need to do it all now. We don't have that much 
time left if we want to have a family farm structure of 
agriculture.
    We have been through shakeouts before. It is time to change 
the course of policy. Your testimony today at this official 
hearing is not symbolic. Nobody is here just to make it 
symbolic. It is very important.
    Finally, when I saw Bishop Harrington walk in, I wanted to 
say this, that it is OK. The other day I had a chance to visit 
with Bishop Locker, Raymond Locker, who is a real hero to me. I 
have loved this man for a long, long time. He is struggling 
with cancer. Talk about a bishop who has always been there for 
farmers and always been there for justice. Since I consider 
this to be a justice gathering, I would like everyone, just for 
20 seconds, just to say a prayer for Bishop Locker because he 
has always, in a very prayerful religious way, always been 
there for us. If we could do that.
    (Whereupon a silent prayer was held.)
    Senator Dayton. Thank you, Paul.
    Format again, we will start, Bishop, if we may, with you 
and ask you--first we will move right around the panel 
sequentially this way, and then we have a few members of the 
Minnesota Legislature here. After the panel has spoken, I would 
like to invite each one of you to speak first at the 
microphones, if you would, and then we will just ask you to 
line up if that works, and everybody is going to speak. We will 
make other arrangements; we will take comments of each side. 
One caution I would make based on the hearing we had in 
Worthington--which was excellent--it was different points of 
view, as it should be, and that everybody in the audience 
should treat the presenter respectfully. If you don't agree, 
you can withhold the applause. Please, no expressions of 
personal attacks of any kind. Thank you very much.
    Bishop, thank you for joining us.

           STATEMENT OF BISHOP BERNARD J. HARRINGTON

    Bishop Harrington. Good afternoon. I am Bishop Bernard J. 
Harrington of the Roman Catholic Archdiocese of Winona. This 
diocese covers the 27 counties of Minnesota. I am pleased to 
have this opportunity to submit my comments on behalf of the 
Minnesota Catholic Conference and in the name of the Catholic 
bishops of the Archdiocese of Minnesota. I want to thank you, 
Senator Wellstone, for your very kind words about Bishop Locker 
in these very difficult times for him. I appreciate that.
    Our perspective is based on our belief that in the dignity 
of all people as they are created in God's image, for people to 
live a dignified life they must have an adequate and safe food 
supply. For us food is just not another commodity in the grand 
economic scheme. It is essential for life itself and as such 
should be viewed as the common good and not to be controlled by 
a few corporations or by the Government. For us food is a moral 
statement. How food is produced is also important since we need 
not only a bountiful harvest but a safe and sustainable one as 
well.
    Care for the land. It is as critical as what it produces. 
These underlying principles, human dignity, human rights, the 
search for a common good, are what drive our policy priorities. 
In our view, the basic goal of a food system is to ensure an 
adequate supply of nutritious food in an environmentally 
responsible way to meet domestic and international needs and to 
ensure the social health of our rural communities. The bishops 
believe that such a farm system will generate Government 
policies that will give priority to small and moderate-size 
family farms and a widespread ownership of farmland.
    In past years we have heard politicians speak about aiding 
the small and moderate-size family farms. Each time the Federal 
Farm bill will favor large farms and discriminate against the 
small family farm. As you formulate the Farm bill from your 
hearings on this issue, we urge you to be guided by principles 
drawn by the United States Catholic Conference of Bishops 1986 
statement: Economic justice for all. I won't read that 
statement; I will just submit it for our perusal later on.
    We are concerned that the U.S. agricultural policy does not 
adequately promote widespread ownership of farmland. In our 
judgment, current policies have resulted in a concentration of 
farmland which is detrimental to the interest of farming, to 
the vitality of the rural communities, and to the environment. 
This is a matter of policy choice, not economic inevitability. 
We believe that this concentration is a result of a farm policy 
that rewards high yields achieved by heavy use of chemical 
input over land stewardship and channels scarce research funds 
toward chemically and more recently biotechnologically based 
agriculture and away from sustainable and organic farm 
techniques.
    The current system leads to a highly capitalizing farming 
operation and the concentration of farmland and ownership 
eliminating smaller yet still highly efficient producers. 
Furthermore, the phenomenon of vertical integration has 
siphoned off profits from the farmer and given them to 
companies that control the other link to the food systems, 
processors, packagers, marketers, and realtors. In fact, over 
the last couple of decades, the farmers' share of the 
agricultural dollar has remained flat while the cost of the 
production and the marketing share have increased.
    Toward this end we offer you several general 
recommendations: create more mechanisms for beginning farmers 
to secure loans; shift a substantial portion of research funds 
away from the conventional chemically based and more modern 
biotechnic-based agricultural systems to research that 
uncovered sustainable farming practices; continue to analyze 
the current market system that appears to be vulnerable to 
manipulation by giant agribusiness companies.
    In summary, these issues involve tremendous moral 
considerations. The ability to feed a nation and the world 
safely and sustainable, the long-term health of productive land 
and the survival of our rural social fabric all depend on this 
farm bill. I thank you for the opportunity of presenting the 
views of the Catholic bishops of Minnesota on these issues.
    [The prepared statement of Bishop Harrington can be found 
in the appendix on page 58.]
    Senator Dayton. Thank you, Bishop. Thank you for your 
involvement and the involvement of the Catholic Bishops on this 
and other important economic justice issues. I would just say 
to you and any of our panelists that you are welcome to stay 
for the entire proceeding. We also understand if you have other 
commitments. If anyone needs to leave at any time, please do so 
with our gratitude.
    Our next presenter is Mr. David Ladd, who is the manager of 
government relations for Agribank. Welcome, Mr. Ladd.

   STATEMENT OF DAVID LADD, ON BEHALF OF FARM CREDIT SERVICES

    Mr. Ladd. Thank you, Mr. Chairman, members of the 
committee. My name is Dave Ladd, and I currently work for the 
Farm Credit bank that is known as Agribank. The Farm Credit 
Services would like to thank you for bringing the Senate 
Agriculture Committee to Minnesota. We appreciate you recognize 
the important role lenders play in rural America and welcome 
the opportunity to provide testimony regarding the credit title 
of the upcoming Farm bill. A more detailed statement has been 
submitted for the record.
    Over the past few months, you have heard from countless 
individuals and farm organizations with suggestions and 
recommendations for the next Farm bill. Although the Farm 
Credit System has a key interest in the entire Farm bill, we 
have today chosen to focus on proposals to strengthen the 
credit title. You cannot separate the important issue of 
affordable and accessible credit from the broader issues of 
commodity programs, conservation, and trade and rural 
development.
    As you know, the Farm Credit System is a nationwide 
financial cooperative that lends to agriculture and rural 
America. Congress created the system in 1916 to provide 
American agriculture with a dependable source of credit. We are 
a privately held farmer-owned cooperative which serves a public 
good. Access to affordable credit is one of the primary issues 
facing agriculture. It is also an issue the Farm Credit System 
is uniquely qualified to address. For example, in a 2000 study 
release by the Minnesota Legislature to assess the dairy 
climate in that State, the issue of access to capital is 
identified as one of the most core challenges facing the dairy 
industry. Although dairy is a capital-intensive business, such 
concerns are indicative of the need for capital and rural 
America. This is particularly true among young beginning and 
minority farmers and ranchers as well as those seeking to 
modernize their operations.
    What follows are several recommendations we believe 
Congress should consider in writing the credit title:
    Increase the limit on Farm Service Agency guaranteed loans 
for any one individual from $750,000 to $1.5 million. The 
current limit is restrictive on many family farm operations, 
especially dairy and pork producers.
    Increase FSA funding for interest rate buydowns on 
guaranteed loans to small, young, and beginning farmers. Raise 
the ceiling on low documentation FSA guaranteed loan 
applications from $50,000 to $150,000. In addition to the 
existing direct loan program, authorize a guaranteed lending 
program for on-farm storage.
    Reduce the paperwork burden now associated with the 
assignment of USDA benefits and include the pork language to 
express the intent of Congress and designed to assist small, 
young, beginning farmers fully funded to meet the needs of all 
who fulfill eligibility criteria.
    Mr. Chairman, it is critical that credit issues be 
addressed when Congress considers the next Farm bill. As a 
primary source of credit to farmers, the Farm Credit System is 
an integral part of our rural communities. However, far too 
often lenders are left out of the equation when issues 
affecting rural America are debated in the halls of Congress.
    That is why we commend you for listening to the lender 
perspective and thank you for holding this hearing in Minnesota 
to discuss the issues facing our farmers in our rural 
communities. I would be happy to answer any questions.
    [The prepared statement of Mr. Ladd can be found in the 
appendix on page 61.]
    Senator Dayton. Thank you, Mr. Ladd. That was excellent and 
succinct testimony. Thank you very much.
    Next is Mr. Delbert Mandelko. He is president of the 
Minnesota Milk Producers. Welcome.

   STATEMENT OF DELBERT MANDELKO, PRESIDENT, MINNESOTA MILK 
                     PRODUCERS ASSOCIATION

    Mr. Mandelko. Senator Wellstone, Senator Dayton, and fellow 
producers, my name is Delbert Mandelko. I am a dairy producer 
from nearby Preston and the president of Minnesota Milk 
Producers Association. MMPA is the only statewide organization 
that exclusively represents dairy farmers. We have a membership 
of approximately 3,000 dairy producers. On behalf of our 
members, I wish to point out several issues that are crucial to 
producers.
    First, we ask that Congress close the loopholes of import 
of products and restrict imports through quotas and tariffs on 
products such as milk protein concentrates and casein.
    This is not a regional issue. Six years after the 
implementation of GATT, U.S. imports of MPC have risen more 
than 600 percent.
    In the year 2000, U.S. imports of MPCs were equal to about 
350 million pounds of U.S.-produced nonfat dry milk. In 
addition, imports of casein were equal to about 745 million 
pounds of U.S.-produced nonfat dry milk. The importation of 
these products displaces our domestic supply of milk.
    It is the most serious problem facing U.S. dairy producers.
    The major force driving down cheese prices in 2000 was 
illegal use of imported milk protein concentrate in many 
standard and processed cheese products.
    On page 19 of the General Accounting Office for Dairy 
Products, it states that if milk protein concentrates are used 
in a cheese product, the product cannot bear the name of 
standardized product, for example, pasteurized process cheese 
slices, but if you look at the list of ingredients on the label 
of any processed cheese product, milk protein concentrate is an 
ingredient.
    Milk protein concentrate has not been deemed a safe, legal 
food ingredient by the Federal Food and Drug Administration.
    If it is being used illegally, why can't we put a stop to 
it?
    Second, increase the enforcement of Federal standards for 
butterfat and solids nonfat content in fluid milk.
    Congress should consider taking it a step further and raise 
the solids nonfat standards in fluid milk. This policy would 
provide a more nutritious, better-tasting fluid product to the 
customer.
    Third, MMPA supports the continuation of a true milk price 
support program, where the price is set at today's level. The 
support price helps stabilize dairy prices and secures a 
reliable domestic supply of milk and dairy products for 
consumers. Any price support program should include a supply 
management program that treats all regions of the U.S. fairly.
    Fourth, we ask that Congress consider the implementation of 
a national Johne's Program. We need to do more than just 
research and control the disease. We need a program that will 
help us eliminate this disease from the farms.
    Last, MMPA is willing to openly debate and consider any 
specific proposal that may come forward as the Farm bill debate 
continues. We believe it is important to treat all producers 
from all regions fairly. We do not want a system that helps 
producers in one region when it is at the expense of producers 
in another region.
    Thank you for the opportunity to briefly express Minnesota 
Milk Producers' position toward Federal dairy policy.
    [The prepared statement of Mr. Mandelko can be found in the 
appendix on page 64.]
    Senator Dayton. Thank you, Mr. Mandelko. As you know, I 
have introduced legislation regarding milk protein concentrate. 
We will be trying to attach that to the Senate agriculture bill 
which will be taken up this fall.
    Senator Dayton. Next we have Mr. Mike McGrath from the 
Minnesota Project in Lanesboro. Welcome.

   STATEMENT OF MIKE McGRATH, ON BEHALF OF MINNESOTA PROJECT

    Mr. McGrath. Thank you, Senator. Senator Wellstone, Senator 
Dayton, Representative Gutknecht, I am here today to speak and 
to testify on behalf of the Minnesota Project, which is a 
member of the Sustainable Agriculture Coalition and the 
National Campaign for Sustainable Agriculture. I am here to 
testify in support of the Conservation Security Act which 
Senator Harkin and Senator Smith have before you in the Senate 
Ag Committee. The Conservation Security Act offers a fresh new 
approach to farm assistance that provides incentives to 
diversify a farm's land-use practices to enhance conservation 
benefits, and it does not provide incentives or disincentives 
to production. We realize that the Federal Government plays a 
very important role in assisting farmers through these 
continued times of low prices. Many believe that Government 
payments to farmers must be held accountable for the incentives 
or the disincentives that they provide. Many believe that a 
farm policy that provides billions of dollars in assistance 
must not serve to just enhance the growth of an industrial 
agriculture that ignores rural communities and the environment. 
It must offer a constructive return on investments to the 
taxpayers who foot the bill.
    In the area where I live, I have a farm in the Root River 
Valley near Lanesboro. Last summer we had a 100-year flood. We 
watched millions of tons of soil wash down the Root River 
Valley and on down the Mississippi River. This year we 
witnessed--many of the fields that were completely destroyed 
and washed away have been rebuilt, and they are back in corn 
and beans, soybeans. We think that the incentives to plant 
these crops are so great that we are actually building fields 
to grow these crops in so that we can harvest the subsidy that 
the Government has provided.
    We believe it is time for Federal farm assistance to 
provide stewardship incentives to working lands. The 
Conservation Security Act provides stewardship incentives that 
promote on-farm conservation practices that will enhance and 
protect soil and water and enhance and protect soil and water 
resources and wildlife habitat. We believe that is good for all 
Minnesotans regardless of your political beliefs.
    Current conservation programs provide incentives to install 
practices, but there is little money to maintain these 
practices. Cost-share funding programs like EQIP are very 
critical to helping farmers establish these practices, protect 
resources, but the added costs of maintaining these practices 
sometimes offer disincentives for financially strapped family 
farm operations. The Conservation Security Offer will allow 
farmers to voluntarily enroll their working land in 
conservation plans that provide for 5- and 10-year renewable 
contracts. These contracts will pay the farmer for 
environmental benefits generated from the practices that are 
installed, compensating him for the maintenance time and 
helping with any foregone revenues from the implementation of 
those practices.
    We believe it is time to level the playing field here so 
that farm assistance is spread more equally among all farmers, 
not just those who produce specific commodity crops.
    Finally, we believe that the new Farm bill should reward 
farmers who are already doing a good job. Many farmers already 
are practicing conservation on their farms, but there is no 
subsidy for them. The Conservation Security Act allows these 
farmers to enroll their existing conservation practices into a 
security plan. We believe that now is a historic opportunity 
for the Senate to pass a farm bill that is based on sensitive 
goals and realistic outcomes. As members of the Senate Ag 
Committee, you can show extraordinary leadership in making 
conservation the centerpiece of the next Farm bill. The 
Conservation Security Act is a good bill for Minnesota farmers, 
and it is a good bill for Minnesota's environment.
    Thank you.
    [The prepared statement of Mr. McGrath can be found in the 
appendix on page 66.]
    Senator Dayton. Thank you. We will be sure that it will be 
part of the Senate bill. I might just also quickly say in terms 
of our panelists, the selection process, we try to get a good 
cross-section of representation throughout the State. Many of 
the major farm organizations, representatives, and presidents 
testified at our Worthington hearing, the Farm Bureau, Farmer's 
Union, NFO, Pork Producers, Corn Growers, Soybean Association. 
We try to get a diversity of panelists through the two 
hearings. That is a brief explanation of our selection process.
    Marcie McLaughlin, we are glad to have you here from 
Redwood Falls and from Rural Partners.

 STATEMENT OF MARCIE McLAUGHLIN, ON BEHALF OF AMERICA'S STATE 
                   RURAL DEVELOPMENT COUNCIL

    Ms. McLaughlin. Senator Dayton, Senator Wellstone, 
Representative Gutknecht, members of the committee. I am 
pleased to be here today representing America's State Rural 
Development Council to provide you with some of our thoughts 
related to the Farm bill and other items related to rural 
America and Minnesota.
    The first State Rural Development Council was accomplished 
over a decade ago to help the U.S. Department of Agriculture 
and Federal Government advance provisions of the Rural 
Development Policy Act of 1980 which called for greater 
coordination and the formulation and administration of rural 
development policies and programs. Today the State Rural 
Development Council operates in 40 States, and with the 
Washington-based National Rural Development Council comprised 
of the National Rural Development Partnership.
    Thank you both, and Representative Gutknecht, for the 
support of Minnesota Rural Partners and the National Rural 
Development of Partnership by cosponsoring the National Rural 
Development Act in the Senate. Thank you also for your 
continuing support to include NRDT in the appropriations bill 
and the rural development title for this Senate farm bill 
language. Minnesota has been involved in many areas that impact 
rural Minnesota. In our most recent event, Joint International 
Summit on Community and Rural Development and many areas that 
impact rural Minnesota and were held last month in Duluth. It 
is an example of how we can convene and stimulate discussions 
and actions.
    We appreciate the presence of both staff members at this 
important event. Over 1,200 people from all over Minnesota, 
from 47 States, and 15 foreign countries were there, and many 
of those folks participated in an unscientific online survey 
regarding rural policy.
    Three statements with the highest agreement in order are 
rural--from a survey rural areas must diversify economically if 
they are to survive in the long run; that agricultural policy 
must more fully recognize its linkages to rural development 
issues; and that Federal and State government must help local 
leadership build a community infrastructure that is needed for 
successful rural development.
    As the Farm bill is rewritten, we encourage inclusion of 
each of these points. These can occur as we focus on what 
Minnesota Rural Partners is calling the five north stars. 
Energizing entrepreneurs. How do we stimulate new growth within 
rural areas? Managing the new agriculture. How do we not only 
take advantage of new ways of doing business within agriculture 
but also provide markets for those at our joint marketing to 
doing something sustainably--is a digital divide, and you are 
all aware of that need. Sustaining the landscape with the 
pressures that are put on land issues. Then boosting human 
capital. Providing that critical visible and invisible 
infrastructure within communities.
    As Federal agencies work together for rural places, we will 
see coordination of programs authorized in several communities 
including the ag community.
    Senator Wellstone, as you stated at the Farmfest last week, 
we are at the point where we need new rules. Who holds the 
center of communities? Where are those decisions made? Are they 
close to home or far from home? The past Farm bills were 
written for the reality of the time. Like many new realities 
for rural places in the United States, we need a new approach. 
No one congressional committee or administrative department has 
overall responsibilities for rural policy and rural programs' 
integration reinforce the needs for these new rules and 
policies.
    Thank you for your time today.
    [The prepared statement of Ms. McLaughlin can be found in 
the appendix on page 70.]
    Senator Dayton. Next we have Mr. Ken Meter with the 
Crossroads Resource Center in Minneapolis. Welcome, Ken.

      STATEMENT OF KEN METER, CROSSROADS RESOURCE CENTER, 
                     MINNEAPOLIS, MINNESOTA

    Mr. Meter. Senator Dayton, Senator Wellstone, and 
Representative Gutknecht, I really thank you for your 
invitation to speak today. The Crossroads Resource Center has 
worked alongside community-based groups since 1972. This winter 
we were asked by the Hiawatha Statute Project in Lanesboro to 
study the farm and food economy of southeast Minnesota. Our 
study began with a few simple questions. We wondered why in 
this region that produces $1 billion worth of food each year, 
the town of Houston recently spent 2 years without a grocery 
store. We wondered why when 8,400 local farmers are struggling 
to make a living, local residents spend half a billion dollars 
each year buying food from outside the region. We wondered why 
farm families work two to three outside jobs to cover the costs 
of producing commodities.
    After looking at the numbers, we discovered the local 
families lose $800 million each year as they grow and buy food. 
It is a very conservative figure but a staggering total equal 
to 20 times the amount of the Federal farm subsidy that comes 
into the region each year. The fact that this region subsidized 
by the national economy will not be used by most farmers in 
this room. Nobody in America, to our knowledge, has measured 
such losses before at a regional level.
    It would not have to be this way. The reasons food 
consumers are a formidable market--if local residents purchased 
only 15 percent of their food from local growers, that would 
generate as much income for farmers as all farm subsidies 
combined. Moreover, southeast Minnesota is not unusual. Similar 
stories could be told about most any rural region in the 
country. In many regions, in fact, the numbers might look even 
worse because southeast Minnesota's farmers have been and the 
farming with high years of soil conservation in the economy is 
more diverse here than many rural local, but it is humbling to 
realize how vast these issues are.
    Our study was written with the understanding that we can 
only reverse these losses once we know what causes them. This 
is terribly important to have. Further, we can use these 
findings from one region to recast the farm debate in 
Washington. Policies should focus on rural communities as a 
whole, not simply on farmers. Policies should start with the 
premise that rural regions should subsidize the U.S. rather 
than the other way around.
    Farmers go to the Federal level because there is water 
there. Having some weather with severe economic drought has 
faced farm families for 30 years. It is not enough to give 
farmers more water. We must also fix the buckets farmers use. 
We must build new economic structures that stop these leaks 
once and for all. This is not a time to quibble about whether 
farmers receive too much water. It is a time to ask is the 
water safe to drink, who ultimately gets the water, and how do 
we build buckets that do not leak.
    I was extremely pleased to learn when I attended the farm 
hearing in Worthington on August 4 that farms are asking for 
the choice to leave the capital-intensive economy. I am also 
pleased to hear farmers in southeast Minnesota asking for a 
chance to build a parallel food economy, one that feeds people, 
one that protects soil and water, and one that builds wealth 
for rural residents. These farmers are not asking for an income 
stream from the Federal well. They are asking for investments 
in rural communities. Further, they are asking the Federal 
Government to stop subsidizing economic systems that extract 
wealth. Once we make new investments, we will also need to 
evaluate results.
    Tragically there is very little data available that shows 
rural communities how their local economies rise and fall. 
Given the massive unintended consequences of the Farm bill in 
1996, including, of course, the $30 billion that was required 
to support farms in 2000, it is the responsibility of the 
Federal Government not only to pass solid rural legislation but 
also to provide excellent data that allows rural communities to 
assess the impact of the next Farm bill on their communities.
    Crossroads stands ready to help the Senate Agriculture 
Committee in any way to advance these goals.
    Thank you.
    Senator Dayton. Thank you. Could you submit a copy of your 
study for the record? Thank you very much.
    [The prepared statement of Mr. Meter can be found in the 
appendix on page 74.]
    Senator Dayton. Mr. Peterson, I see your display behind us. 
Enlighten us. Thank you for coming.

      STATEMENT OF SEVER PETERSON, EDEN PRAIRIE, MINNESOTA

    Mr. Peterson. Thank you. Senator Wellstone, Senator Dayton, 
Representative Gutknecht. They say a picture is worth 1,000 
words. We will get to that in a moment. Honored guests and 
fellow farmers, it is my pleasure to be here today. I would 
like to speak from my heart. I have submitted testimony, and I 
would like to summarize that, if I may.
    I am a farmer in Eden Prairie, Minnesota. My family started 
farming there in 1984. We have raised vegetables. As you see, 
one of our markets is here behind us. We also market vegetables 
and export them to Canada from our farm. We have done that 
since that time a little over 100 years. We also raise corn and 
soybeans, and we have been livestock farmers.
    I am of Vietnam vintage. When I left for Vietnam, my Dad 
wasn't well. We sold the livestock just 2 days before I left 
for Vietnam. I tell you, not a Christmas goes by that I don't 
think of that livestock. We bagged them on Christmas Eve.
    I see some problems in production agriculture. The problem 
I feel that is huge for me is that I feel we are misguided. We 
farmers are misguided. Many of us are misguided. An example I 
would like to say is that when ethanol--when I speak to people 
who are producing ethanol and they feel that the raw product 
corn has to be a low price for them to make a profit in their 
ethanol, I feel that that may be misguided. Or when hog farmers 
are asking for lower soybean prices in order for them to make 
money on their hogs, that is misguided.
    Wholesale and retail, we do wholesale and retail business 
on our farm. The corn that you see behind you on that stand, if 
I bought that from my farm and it is a separate business, it is 
called one of those niche markets or value added in the words 
of today, if you will. I am here to tell you that there is a 
problem. If this market here would beat the price down to me at 
the farm level of the raw product, what for? What is the 
purpose? We need profits at the farm gate. Every farm does. I 
feel that we have been missing that. We need something dramatic 
that gives us profit for the raw product at the farm gate.
    I feel there have been some failed solutions. I have used 
them as examples in my own life. I grew up, as I said, a 
livestock farmer. I am a member of the Pork Producers, I am a 
member of the Corn Growers, I am a member of the Soybean 
Growers, and probably all of them. I have never been a member 
of the Milk Producers. I have only helped my neighbors milk. 
One of the things I have heard is get rid of the inefficient 
and those that remain will be better off. Well, I don't believe 
that for a moment, get rid of the inefficient and the rest will 
be better off. I don't believe that for a moment. How about 
exporting our way to prosperity? Today I am here with three 
exchange students. One of them is now my farm manager. He is of 
European descent, Dutch, family immigrated to Brazil, and we 
are not going to introduce them. Another one of them here today 
is from Germany, another one is from Sweden. They have the same 
problem there. They also want to export. Am I going to export 
into their market? Are they going to take my market? We need 
some cooperation. Not competition, not consolidation, not 
monopolization, we need some cooperation. Talk about free 
markets. We talk about level playing field. The men here from 
Brazil--and you can speak with them afterwards--they got $3-a-
day wages. I pay more than $3 an hour and benefits on my farm. 
This is not a level playing field. It is a highly disparate 
world. I believe we have to deal with those issues.
    I am sorry here that it is taking me so long, but we 
farmers cannot help ourselves. It seems I am 57 years old. In 
over 50 years of history of agriculture, we farmers have not 
been able to help ourselves. We have lost our economic power. 
We need you Senators and Congress, we need you to help us 
regain this economic power. I feel like we are trying to put 
air into a blowout. We don't have a low tire. We have a 
blowout. We can hook up the hose, and we can let the air run 
all we want to with value added and niche markets and 
everything else, all we want to. Unless we have a tire there 
that will hold air, we have nothing.
    I would just like to show you here if I can on these 
pictures. This is a maze that we did last year. You see in the 
maze is the Nation's capital. I feel that we farmers are lost 
in this maze. I feel that agribusiness is somewhere in this 
maze. We farmers have absolutely no economic power to get out 
of this maze. In the center of this maze is the United States 
Capitol. We need you. Now is the time. We need you to help get 
out of the maze. We need you now. This year's maze--and it is 
symbolic--is the United States. I believe this effort has got 
to start with the United States. We are supposedly the center 
of the free world, or certainly part of the free world. Well, 
let's stand up and do something. Let's speak for ourselves. 
Let's get our economic power. We need it. We all know that we 
are going backward and we are failing. No farmers made money 
last year without our subsidy. I don't like subsidies, but I 
certainly can't even buy groceries without them. What a 
travesty. What a travesty.
    Thank you very much.
    [The prepared statement of Mr. Peterson can be found in the 
appendix on page 78.]
    Senator Dayton. I am just curious, did you build a solution 
into your maze?
    Mr. Peterson. We need cooperation.
    Senator Dayton. I wanted to see if Congressman Gutknecht or 
Senator Wellstone have any comments to make to the panelists or 
questions of them.
    Mr. Gutknecht. Well, I would like to introduce a couple of 
people. First of all, thank you. The testimony has been 
excellent, all of you. Very thoughtful. Having been out on some 
of the rotational farms, I honestly believe that for large 
chunks as part of the State, that has got to be a big part of 
the answer. I do want to introduce a couple of very important 
people in the back of the room. I thought I saw Bill Hunt. 
Bill, wave your hat back there. He is our State NRCS director. 
Then we have John Monson. Wave your tie, John. They are going 
to be around later. If you have any questions or comments for 
either one of them, John is the new head of the Farm Service 
Agency. Probably between the two of them--and I suspect I speak 
for the Senators as well--they are a very, very valuable 
resource for us. When there are questions that we can't answer, 
we often call them, and they have been tremendous advisors to 
us. I did want to make sure they were introduced.
    Senator Dayton. Thank you.
    Paul.
    Senator Wellstone. Well, the only thing I want to do--I did 
it at the beginning, Senator Dayton--is I want to thank the 
recorder for helping us with this hearing, because this means 
that everything that is said is a part of the official record. 
Everything that will be said today will be very important. I 
also want to thank our signer. I don't think we could have a 
hearing without having a signer, and I appreciate your work as 
well. Give them some applause.
    I know that Mark is going to have people introduce 
themselves, and we are going to get right to discussion. Since 
I drove part of the way down with Dave Frederick, I want to 
make sure I introduce him as president of the Minnesota Farmers 
Union. Where is Dave? In the back of the room, I am sure. I 
want you to know, Sever, that following up on what you said, 
the hardest thing for me to do now is to be quiet. Because you 
are absolutely right.
    Senator Dayton. We will turn to the next part of our 
hearing. Again, to our panelists, thank you very much. That was 
excellent testimony. You stuck within the timeframe. Thank you 
very much. You are welcome to stay where you are for the rest 
of the hearing. If anyone needs to leave, go so with our 
gratitude. Thank you. I would like to give an opportunity--I am 
always afraid to start introductions--but I don't know who is 
in the room, and I don't want to leave somebody out. We have 
members of our State legislature here. I would like to invite 
you to come up and introduce yourselves. If you have comments 
within the few-minute time limit you would like to make during 
this hearing, please do so. Also, Mr. Monson and Mr. Hunt, if 
you would also--I appreciate Congressman Gutknecht's 
introduction. If any of you would like to say something for the 
record as well. I will give you the opportunity to do so now. I 
see Representative Winter is coming forward. Mr. Monson, 
welcome. Anyone else?

 STATEMENT OF JOHN MONSON, STATE EXECUTIVE DIRECTOR, MINNESOTA 
            FARM SERVICE AGENCY, ST. PAUL, MINNESOTA

    Mr. Monson. I want to say thank you, Senators and 
Congressmen Gutknecht, for coming here to my part of the State. 
Dodge County is where I hail from. We have Dodge County farmers 
sitting here in the group. If they get a little raucous, be 
careful with them.
    I just wanted to make one announcement if I could. The Farm 
Service Agency has made, as a result of these folks here at the 
table, an emergency assistance package. We have in your 
accounts without your knowledge put money in there. We didn't 
take any out; we put money in there. Market loss assistance 
payments. The bonus payments, they are there, probably in most 
every county. Right now they are out. Payments for soybeans 
will be going out this week. We have basically taken everybody 
off of everything else to make those payments as quickly as we 
can. That is really all I have. Thank you.
    Senator Dayton. Thank you very much.

    STATEMENT OF TED WINTER, STATE REPRESENTATIVE, STATE OF 
                           MINNESOTA

    Mr. Winter. It is my pleasure to be here. I want to thank 
the Senators and Representative Gutknecht. My name is 
Representative Ted Winter. I live on a farm by Fulda. I have 
actively been farming for 37 years. I have served in the 
legislature for 16 years now and went through the 1980's and 
went through times and troubles and people and personal 
problems that they had at that point. We are right back in the 
same boat today because we can't get a decent price for what we 
do in the marketplace. That is our problem.
    We can talk about more credit. I don't know anybody in this 
room or any farmers that I have in my neighborhood that 
actually is willing to take on more credit. They already got 
too much debt. They want to have some money for what they do. 
If we do anything in the Federal Farm bill changes that doesn't 
allow more price help for our farmers, anyone that wants to 
reduce the loan rates for any farmers in any kind of bill or 
any kind of form from any kind of commodity group should be 
willing to take a 15-, 20-percent reduction in their paychecks 
and their budgets for their businesses. Because right now with 
the way it is happening, there is not enough money. We need the 
extra oil seed payments. We need the extra emergency payments 
from the Federal agencies so we can actually pay our bills and 
be out there. It is not fun. Our children and our grandchildren 
aren't going to be out there. That is the worst fear I have 
that I hear in the minds and the hearts of many farmers that I 
talk to that are 50 to 60 years old. Well, this is it. I am the 
last one. I am the last generation. We are the last generation 
if we don't fix this that are going to be out here. Then we 
will turn it over to the industrial corporate structure, and 
then they will take over, and they will farm it, and the Fuldas 
and the Springfields and the Stewartvilles, you might survive 
because you are close enough to Rochester where you get some 
bedroom community stuff. That is what is going to happen. We 
have to fix the price. We don't need more debt. We need higher 
loan rates. We need managing inventories. There is not a 
business in the world that doesn't manage its inventories. One, 
farmers are told to produce all you can. If you produce all you 
can, maybe we can sell to another world, and maybe some other 
world will buy it, and maybe if you do it often enough and long 
enough, maybe then you will drive somebody else out of 
business, and maybe then you will be productive and profitable. 
Don't work. Never worked. Never will work.
    Senators, congressional members, fight for price. Make the 
total contest of your farm bill determine that the price is 
better; the farmers don't get less. We have been doing more for 
less for so long that we can't do any more.
    Senator Dayton. Well said, Ted. Thank you very much. Thank 
you for attending both hearings, the one in Worthington and 
here. I see also who was also at our Worthington hearing, 
Representative Mary Ellen Otremba. Welcome, Mary Ellen.

STATEMENT OF MARY ELLEN OTREMBA, STATE REPRESENTATIVE, STATE OF 
                           MINNESOTA

    Ms. Otremba. Thank you, Senator Wellstone, Senator Dayton, 
and Congressman Gutknecht. I also grew up on a farm and went 
away to college and climbed the corporate ladder and then met a 
farmer and came back to the farm and have passionately enjoyed 
it. I actively farmed until 1997 when my husband died, and now 
I still live on the farm and do some farming.
    I just want to touch on just a couple of issues that 
pertain to one of my biggest interests, and that is dairy, of 
course, on the Federal level. I have read in the papers and 
heard that some of you are not supporting the Northeast 
Compact. My feeling about that is when some farmers are getting 
a fair price, instead of punishing them and taking that away 
from them, why don't we let the southeast and the Midwest and 
whatever part of the country that wants to do a compact, do a 
compact. Or better yet, do it at the Federal level. I am really 
tired of us competing against other farmers who are all in the 
same mode as to produce healthy food.
    Second, in that whole dairy problem, one of the major 
problems we have is that California farmers, dairy farmers, 
are--they receive about the same that we do for our milk per 
hundred, but the Federal Government purchases all their surplus 
milk, and then that surplus milk gets dumped on the Wisconsin 
cheese market. It is time for that Federal law to go out the 
window.
    Another thing that I have a hard time with in the whole 
dairy problem is in the 1999 Farm bill, all the processors were 
allowed--so that their cheese plant would never fail. Well, in 
my district alone, because my farmers are around under 100 
cows, each of those dairy farmers are giving $10,00 to $40,000 
a year to those processors involuntarily because of the 1999 
Federal Farm bill. Multiply that out in my community, which is 
the poorest community in the State, this is a lot of money 
leaving just for that amount alone. The Federal Milk Marketing 
Order deducts 3 cents per hundredweight for their milk 
marketing order. In Minnesota alone that is $2.5 million to 
punish us because we don't happen to be the right distance from 
Wisconsin.
    My third and final--and maybe one of my most important 
messages--is that NAFTA has done some good things, but we need 
to seriously, seriously, seriously take a look at Chapter 11. 
There are 23 chapters in NAFTA, and we are seeing some serious 
lawsuits against our Government from foreign companies because 
of the way those NAFTA laws are written.
    We are in the process of writing the Free America Trade 
Act. Please look at that area of NAFTA before you finish 
writing that agreement because the agreement as it is written 
now is exactly like the NAFTA. The Chapter 11 absolutely needs 
to be looked at, our clean water, all of those things will be 
gone. Thank you.
    Senator Dayton. Thank you.
    Senator Scheevel, Congressman Gutknecht indicates that 
since we are in your district, we should have asked you to 
welcome us, but welcome to you. Thank you for being here.

STATEMENT OF KENRIC SCHEEVEL, STATE SENATOR, STATE OF MINNESOTA

    Mr. Scheevel. Senator Dayton, Senator Wellstone, 
Congressman Gutknecht, we would like to welcome you to our back 
yard. This is referred to as God's country. This is probably 
some of the most beautiful landscape and some of the most 
fertile farmland you will find in the Midwest. Frankly, we are 
in a time of transition. This is the country, and this is an 
area that was settled. One of the reasons we have livestock 
here is because it is a lot easier for the cattle to walk out 
to the fields and harvest those hillsides than it is to do it 
with machinery.
    We are in a time of transition now because the small 
traditional producers are essentially leaving the land. That 
means either you have some midsized producers that take up 
their slack, or you have corn and beans. One of my concerns is 
that the agriculture industry itself is fighting, saying it has 
got to be our way or no way. If there is one point to the Farm 
bill I would like to emphasize, it is that we have to have 
opportunity for farmers of all sizes, all philosophies, all 
styles, to be able to compete and exist in the future. I too 
have seen the erosion of the past couple of years. We can very 
easily find where every waterway should have been in place in 
the last 2 years because they were gullies last fall. We need 
to have those kinds of environmental incentives. There used to 
be. It used to be that if you wanted to have a Government 
payment, you had to have the erosion plan in place. There isn't 
that tie-in together today. There should be. We have to provide 
incentives and rewards to be good stewards. Because without it, 
if you have 4,000 acres to run and the rain is coming, 
sometimes you don't stop for that waterway. We need the 
incentives. About most of all, we need opportunity. We need 
opportunity for everybody if they want to make their living on 
the land, that they have that opportunity whether it is a small 
producer with 2 acres of vegetables or whether it is 2,000 
acres or 2,000 cattle and anywhere in between. Opportunity for 
anyone to pursue their dream in this country. We hope that you 
will have the wisdom and insight to make those kinds of dreams 
possible. Thank you.
    Senator Dayton. Well said, Senator. Thank you very much for 
the welcome as well.
    Unidentified Speaker. Never follow somebody that is always 
taller than you are. Senator Wellstone and I have something in 
common. We both are true wrestlers. I sometimes forget that in 
this State where we are represented by a fake wrestler, we can 
kind of point that out once in a while. First of all, I want to 
welcome you. The mayor was gracious enough to say that this is 
Queezley's Gable country. Honestly we have the honor of 
representing this in the State legislature. This is a great 
area to run. These are great people, and they will be warm-
hearted and welcoming wagon whether Republican or Democrat 
today. This is a great area to recognize.
    I just want to quickly touch--first of all, to thank the 
Congress for passing some unique tax legislation. I work on 
taxes and transportation in this State. One of those was the 
inheritance tax and making that so it is better so people can 
give their farms to their children and make sure that we can 
pass the farm on. In the past it has been almost impossible to 
do that, whether it is a capital gains tax or the inheritance 
tax. The things that were done this year in Congress really 
does help the situation in the future. Hopefully we can make 
sure that that happens.
    This past 2 weeks I was able to go up and take a tour from 
the St. Paul Harbor down to Hastings U.S. Army Corps of 
Engineers. They invited me up because of my work on 
transportation in the Minnesota House. I want to say one thing. 
We do need to upgrade the transportation system in this Nation. 
Our locks and dams are way behind. They were designed in the 
system where horses and a John Deere B were used to till the 
land. These locks and dams are out of date. They need to be 
updated. We need to find ways for railroads to go through 
cities without disrupting cities. We need to find ways to 
improve our highways for the truck traffic and so forth. We are 
not only just shipping products out. We are shipping things in 
that the farmers need for supplies and other things. We need to 
make sure that that transportation system is in place. We have 
tried in the Minnesota House and the Senate and with the 
Governor to make sure that we get that done in Minnesota, but 
we do need Federal help in that area. Again, thank you for 
coming to Stewartville. It is a great place to be.
    Senator Dayton. Thank you very much. Everybody can tune in 
to the Governor's radio show on Friday for his response.
    Now we are going to open it up for anyone in the audience 
who wishes to comment for a period again of, I believe, 2 
minutes. I ask if you have additional comments or testimony to 
make, or you can submit it for the record. We will go from one 
side to the other. Please state your name at the outset for the 
record, and we will start then.
    There was a young woman who was here. We haven't had an 
eighth-grader testify as yet at either of our hearings, but 
since Amber here represents the future of Minnesota 
agriculture, it would be appropriate, Amber, we will start with 
you. State your name for the record, please, and then we will 
hear your testimony.

          STATEMENT OF AMBER HANSON, RACINE, MINNESOTA

    Ms. Hanson. My name is Amber Hanson. I am 13 years old. I 
live on a farm with my family in rural Grand Meadow. We raise 
corn and soybeans on our farm. My dad is very interested in 
biodiesel. He feels that this will help us continue to farm by 
creating more markets for our soybeans. Biodiesel has proven to 
be a much cleaner-burning fuel. This especially helps kids 
because of the fact that school buses use diesel fuel.
    Biodiesel is the first and only alternative diesel fuel to 
complete all health-effect testing. Right now when we are 
standing in line waiting for the bus after school or riding the 
bus for 2 hours, as many of us do, we were inhaling all the 
harmful emissions coming from the bus. Biodiesel reduces 
harmful emissions coming from the bus. Biodiesel reduces its 
harmful emissions, and it even extends engine life so our 
schools can save a lot of money each year by not having to buy 
or fix as many buses. There are no equipment costs for buses.
    There are no equipment costs for buses to change over to 
the biodiesel. Schools don't have a lot of money to work with, 
so this is the means by which protect students' health with 
cleaner air. It is the proven fact that everyone in this room 
breathes air. Why not clean it up by using biodiesel? Even 
riding a diesel-powered bus could be harmful to your health. Do 
you really want to be sick just from breathing? I know I don't.
    It takes the Earth 250 million years to replace the oil 
supply. Why take that from the Middle East when my dad and 
other soybean farmers are growing oil in their fields right 
here on a yearly basis. You make the decision.
    Thank you.
    [The prepared statement of Ms. Hanson can be found in the 
appendix on page 80.]
    Senator Dayton. Amber, thank you very much. I have 
introduced legislation in the Senate for biodiesel incentives. 
If you and your father could come out to Washington and testify 
on behalf of my legislation this fall, I would love to hear 
from you. I will followup with you.
    Congressman Gutknecht wants to make a comment.
    Mr. Gutknecht. First of all, Amber, I want to say that was 
great testimony. Second, one of the provisions that was 
included in the House-passed energy bill is something called 
the ``green school bus.'' It is something I have been pushing 
for a long time. That is at least let's show that biodiesel 
works by putting it in school buses. If we can get it in every 
school bus in the United States, it would go a long way to 
reducing the surplus we have in soybeans, but more importantly, 
you are exactly right. It will clean up our air. I am 
absolutely with you.

  STATEMENT OF COLLEEN LANDKAMER, LEWIS COUNTY COMMISSIONER, 
                       MANKATO, MINNESOTA

    Ms. Landkamer. I am Colleen Landkamer. I am a Blue Earth 
County Commissioner. Previous to my becoming a county 
commissioner, I worked for Congressman Tim Penney. My first 
farm bill was the 1996 Farm bill, and I have been working on 
them ever since. I am also the chairman of the National 
Association of Counties Rural Action Caucus. The Rural Action 
Caucus at the National Association of Counties is 1,000 members 
strong. I am really looking forward to working with all of you 
on this farm bill because it is so critical to our future in 
this Nation. I want to thank you for taking time during the 
recess to hold these hearings and to come out and meet with the 
people whose lives will be impacted by this farm bill, the 
people who really do the work and who put their jobs, their 
lives, on the line with the legislation that you will pass. 
Thank you very much for hearing from the people that it impacts 
the most.
    I also want you to know that--and you know this--across the 
Nation there's been great economic prosperity, but it has been 
uneven, and it hasn't hit many of our rural areas. We are 
seeing people who are being challenged more and more each day. 
I ask you to think about that in the rewrite of the Farm bill.
    Now, I know there's a lot of people that want to talk, and 
I don't want to take their time, so I will submit my formal 
testimony to the record. Thank you very much.
    Senator Dayton. Thank you, Colleen.
    Welcome.

   STATEMENT OF BARBARA J. COLLINS, LEGAL SERVICES ADVOCACY 
                  PROJECT, ST. PAUL, MINNESOTA

    Ms. Collins. Thank you, Senator Dayton, Senator Wellstone, 
and Congressman Gutknecht, for the opportunity to speak today 
on a subject that is very important to low-income Minnesotans 
and indeed to millions of Americans. My name is Barbara J. 
Collins. I am with Legal Services Advocacy Project.
    I want to talk about the re-authorization of the Federal 
food stamp program which Congress must act upon this year. 
Since the passage of the Personal Responsibility and Work 
Opportunity Reconciliation Act, commonly referred to as welfare 
reform, in 1996, Minnesota has been an innovator in trying to 
maintain an adequate food and nutrition safety net for families 
trying to make the transition from welfare to work. We have 
combined the cash assistance and food programs with the Federal 
waiver. We have expanded eligibility so that as families move 
from welfare to work, they can continue to receive support in 
the form of food stamps. We have recently simplified our food 
stamp application, and I copied a number of pages, and I have 
them all tabbed so that it is less of a burden for families 
trying to obtain this benefit. Because we have done such a good 
job in Minnesota, we have received Federal bonuses for 
maintaining a high level of accuracy in our food stamp program, 
6.6 million in 2000 and 4.5 million in 1999. Despite our 
efforts to eliminate barriers in the food stamp program, we 
have seen a pattern of underutilization of food stamps, which 
other States have seen as well.
    Since 1994 our usage has declined by approximately 34.7 
percent. Unfortunately, we don't have reason to believe that 
this represents a decrease in need. I brought a letter to the 
committee today from the Minnesota Food Share Association which 
represents the food shelves. They explain that their efforts to 
supply emergency food have been even more challenged than ever 
to continue to provide emergency food. We ask that in re-
authorization several key steps be taken to try to improve this 
program. I have submitted a copy of my statement--but those 
include restoring benefits to legal immigrants, improving the 
level of benefits, making the food stamp program more 
supportive of working families, and allowing better consistency 
between the medicative food stamp program.
    I urge you as you consider re-authorization to make this 
program simple, understandable, adequate, and accessible.
    Senator Dayton. Thank you very much. Your full testimony 
will be submitted for the record. Thank you.
    [The prepared statement of Ms. Collins can be found in the 
appendix on page 81.]
    Senator Wellstone. All of us should be very disciplined 
because there are so many people that want to testify. Barb, I 
have to followup because I fear that your testimony may not 
otherwise be followed up on because there is going to be so 
much else that is going to be said that is important. You are 
absolutely right. We cut the benefit for legal immigrants, and 
their children also aren't receiving it because if they don't 
receive it, they don't get it to their children, the cutback on 
the actual financial part of the actual value of the food stamp 
benefits. There has been over a 30-percent decline, and around 
the country quite often people don't even know they are 
eligible. What is so important about your testimony--and I 
believe people will agree on this--is that the food stamp 
program is the most important safety net child nutrition 
program in the United States of America. Most of the people who 
benefit are the people who are working. They are working full-
time. They are still poor. We take your testimony to heart, and 
we will change it. We are going to change it.
    Mr. Gutknecht. Let me just say that in the bill that we 
passed in the House, we did provide an additional $40 million 
for emergency food assistance programs, and we also simplified 
the application process and provided a 6-month transition 
program for those people who were leaving welfare. We do 
understand that there still are problems, and I speak for just 
about everybody in this room. In this country especially, no 
one should go hungry.
    Senator Dayton. Sir?

 STATEMENT OF GENE PAUL, FARIBAULT COUNTY, MINNESOTA, DELAVAN, 
                           MINNESOTA

    Mr. Paul. My name is Gene Paul. I am a farmer from 
Faribault County, Minnesota. Thank you for being here, Senators 
and Congressman. When we talk about agriculture, there are two 
important elements in agriculture, that is, food and people. 
Any policies we have should be judged in terms of how they 
affect food and people. The Farm bill that we are going to be 
working on this year is going to affect or does affect far more 
than just the rural areas because it is consumer issues as 
well. We must have something done as far as competition. The 
competition is vital in the Farm bill.
    Senator Wellstone. Yes. Yes.
    Mr. Paul. The trend that we are seeing--or what we are 
seeing is not just a trend, but rather it is a cold, calculated 
effort to control the production, the processing, and the 
distribution of food in this country, in the world as well. As 
far as our trade agreements, they need to be rewritten. Trade 
should benefit the producer, the consumer, as well as those 
people handling the trade. We need to have those rewritten to 
protect the environment and labor as well. Those are all very 
important issues. We need to establish a food reserve and an 
inventory management system. I would concur with Mr. Mandelko 
on the dairy policies along with the fact that we do support 
continuation, expansion, and the establishment of other Dairy 
Compacts.
    The Dairy Compact they have in the Northeast does not 
prevent shipments of milk from this country. It does have a 
supply management program in it, and I fail to see how taking 
that price away from them can hurt the producers in this 
country or in this part of the State. We do need to continue 
the Dairy Compact.
    One last point. Farmers need a price, but I recognize that 
there are going to be payments from the Government. We have 
talked about targeting payments. I just want to remind you that 
we have established a precedent as far as targeting payments in 
the emergency money that was sent out to dairy farmers because 
there was a limit put on the amount of money that would be paid 
to a dairy farmer based on the production they had. It was not 
paid on every pound of milk that they produced. We need to 
build on that as far as targeting payments.
    Thank you.
    Senator Dayton. Thank you. Thank you for all your years of 
dedicated leadership.
    Welcome.

    STATEMENT OF LINDA NOBLE, ORGANIC DAIRY FARMER, KENYON, 
                           MINNESOTA

    Ms. Noble. Hi. I am Linda Noble. I am an organic dairy 
farmer from Kenyon, Minnesota. I am here today to stand up for 
democracy, and I would like to have my vote in the vote of over 
15,000 hog producers reinstated that the pork checkoff end 
today. We need to change policies and reject the self-appointed 
leadership of these commodity groups. I produce red pork from 
our farm which goes for the highest export prices. I am forced 
to pay the pork checkoff tax and pay for ads that promote white 
pork and factory farms. These commodity groups don't represent 
me.
    The loss of the family independent farm is something that 
they understand. It is important to have a local food system. 
We are losing too many farmers each day. We need to support the 
sustainable farmers. They are good for local communities, 
environment, and animal welfare and economy. The new Farm bill 
should reflect this. On the news and in the papers, I read 
about spills and fish and pollution of the ground water and 
surface water and air. A new report that is out is called 
``Cesspools of Shame: How Factory Farm Lagoons and Sprayfields 
Threaten Environmental and Public Health.'' This witch's brew 
of toxins from lagoons and sprayfields is polluting our air, 
lakes, rivers, streams, and drinking water. Robin Marks, who 
authored the report, he is quoted as saying, ``It threatens the 
health of farm workers, neighbors, and even communities located 
far away from factory farms as well as fish, wildlife, and 
aquatic ecosystems.'' Read the complete report at the NRDC web 
site at www.nrdc.org. How many reports has there to be before 
something is done? How many people need to get sick? How many 
rivers need to be polluted? The lagoons of Smithfield have 
broken, failed, and overflowed and killed fish and contaminated 
our water and aquifers from the hydrogen sulfide issues, and it 
pollutes our air.
    Under the proposed technology at the EPA, the Agency allows 
thousands of voluntary factories with lagoons the size of 
football fields. Waste contains viruses, bacteria, and 
antibiotics, metals, oxygen-depleting substances and other 
substances that run on our land, the ground water, that ruins 
the atmosphere.
    We need to support more sustainable farmers so we don't 
have to clean up the environment put back in farms. The 
administration needs to see more interest in protecting public 
health and the protecting the--of corporate agribusiness. We 
need a conservation-based farm bill instead of a production-
based farm bill. I will submit my testimony as well.
    [The prepared statement of Ms. Noble can be found in the 
appendix on page 84.]
    Senator Dayton. Thank you very much. I will submit a copy 
of the report that Julie Janssen gave me last Friday for the 
record of the hearing as well. Thank you.
    Senator Dayton. Welcome.

   STATEMENT OF EUNICE BIEL, DAIRY FARMER, HARMONY, MINNESOTA

    Ms. Biel. Senator Wellstone, Senator Dayton, and 
Representative Gutknecht, members of the panel, my name is 
Eunice Biel, and I am a dairy farmer from Harmony, Minnesota, 
in Fillmore County. My husband Robert and I are dairy farmers, 
along with our son Kevin and his wife Kelly. We are members of 
the Minnesota Milk Producers, and also I am on the executive 
board of the Minnesota Farmers Union. I would like to talk 
about two important issues.
    First of all, the fighting compact is taking away attention 
from the real problems. We should be spending more time working 
on our cheese prices here in the Midwest and dealing with the 
MPC problem. Fighting other dairy producers is a losing battle. 
We do not have the luxury to fight amongst ourselves. No dairy 
producer has ever profited at the expense of another dairy 
producer going out of business. Why are we fighting farmers 
with higher production costs? Land is not as productive as 
ours, and we are short of class one milk. Our surplus does not 
come to the Northeast or the Southern States. On the contrary, 
our surplus comes from the Western States. I propose that 
instead of fighting against other regions, we look at possibly 
forming our own Midwest compact to ship out to the areas that 
need it.
    The benefit from compacts is not the financial benefit, but 
rather it brings everyone together to evaluate what is a fair 
price for milk, and it empowers the producer. The reasons the 
compacts were formed in the first place is the Federal system 
failed those farmers, and they took it into their own hands to 
give themselves a better price.
    Second, conservation needs to be an integral part of every 
agricultural practice rather than an afterthought tacked on to 
mitigate damage. Which is why the conservation land impact and 
changes in the next Farm bill are so important. The 
Conservation Reserve Act provides rewards for conservation 
practices on working lands to strengthen both the farmer and 
the land and win support of all citizens who want a clean 
environment.
    I would also like to say that Minnesota Farmers Union along 
with Minnesota Milk Producers have joined in a dialog with 
other dairy producers, and we call ourselves the U.S. Dairy 
Producers Alliance. We need and have dialog with dairy 
producers from the Western States, the Southern States, the 
East Coast States, Louisiana, Alabama, Pennsylvania, and the 
Midwest and to talk about common interests and so that we can 
all share our problems.
    Thank you very much for coming to the southeast part of the 
State.
    Senator Dayton. Well said. Thank you very much. Thank you.
    Welcome.

           STATEMENT OF JIM RIDDLE, WINONA, MINNESOTA

    Mr. Riddle. Thanks for holding this hearing and the 
opportunity to speak. My name is Jim Riddle from Winona. I am 
chair of the Minnesota Department of Ag's Organic Advisory Task 
Force, secretary of the National Organic Standards Board, and I 
am here representing the Organic Committee of the National 
Campaign for Sustainable Agriculture. I would like to discuss 
three issues that I see that the Congress must address coming 
up.
    One is the Conservation Security Act which has already been 
discussed. You must reward farmers who conserve and protect 
rather than those who deplete and pollute and deal with 
problems such as the dead zone in the Gulf of Mexico the size 
of West Virginia that is caused directly by our upland 
practices.
    Second, I would like to talk about organic program needs 
and thank you and the Senate for attempting to get an organic 
certification cost share, and we want to make sure that that is 
passed through the House version of the Farm bill this time. 
Our model here in Minnesota has been working for 3 years 
providing some regulatory relief to organic farmers who have to 
pay their own regulatory costs to prove that they are not 
polluting the Earth. We need some relief, and we need more than 
that. We need research funds. I submitted the written comments 
which have extensive description of various research needs 
coming up. Because farming and harming the earth is true sound 
science at its cutting edge.
    I just want to tell you about last week I was at Lambert 
and the University of Minnesota. It has 120 acres of certified 
organic research farm. Largest in the country. One of only 
three in the entire country. Interesting results coming out 
there after 10 years showing that the organic 4-year rotation 
is comparable yields, better soil quality, no nitrates, and 
significantly higher profits.
    The final thing I would like to touch on is genetic 
trespass. This is a huge issue that must be dealt with. 
Transgenic pollution is harming both conventional and organic 
farmers. We have lost billions of dollars of exports because 
the world doesn't want these crops. We have to grow what the 
markets demand. It is time to implement that and hold the 
companies accountable for the genetic pollution they are 
causing.
    Thank you very much.
    [The prepared statement of Mr. Riddle can be found in the 
appendix on page 86.]
    Senator Dayton. Thank you for covering a great deal of 
important issues in a very short time. Thank you very much.
    Senator Dayton. Welcome.

          STATEMENT OF NANCY ADAMS, LE ROY, MINNESOTA

    Ms. Adams. Thank you for coming out and hearing what the 
farmers have to say. My name is Nancy Adams. A friend and I 
have a 120-acre farm south of here near Le Roy, Minnesota, 
which we bought 3 years ago. My friends and family think I am 
crazy. I am a well-educated, single, middle-aged woman from the 
Cities who has worked and traveled all over the world. When 
people ask me what I do, I say I am a farmer, but I am much 
more than that. I am an environmentalist and a futurist.
    Because I am an environmentalist and a futurist, I have 
become a farmer. Because I believe my future and the future of 
our country lie with sustainable agriculture. There are a lot 
of things that I could say about this, but I will limit my 
comments to a few main points. First, we are approaching the 
end of the petroleum era. Some analysts say this will happen in 
50 years, so many of our children and grandchildren will be 
living in a world with no petroleum.
    One of the major questions we need to be asking ourselves 
and addressing is what we are going to use in the future to 
replace petroleum and all of the ways it is currently being 
used. There is no doubt in my mind that in the future the 
carbohydrates of plant material will replace the hydrocarbons 
of the petroleum in providing fuel, raw materials for industry, 
and food for populations that are growing exponentially. We 
will need huge quantities of plant materials in the future to 
replace petroleum, and we need to ask ourselves now how we will 
grow all of this plant material and work to ensure that we will 
have what we need to provide it.
    To grow the large quantities of plant material we will need 
in the future, we need several things: good agricultural land, 
reliable rain and weather patterns, farmers, seeds that respond 
to varying conditions, and production methods that are 
substantially different than those we now have. Living in the 
Midwest, we take farmers, good agriculture land, and reliable 
rainfall patterns for granted and assume that they will be 
there in the future. However, the continuation of all these 
things are in serious jeopardy and no longer can be taken for 
granted. It should be the major component of the new arm bill 
to ensure that all the components are in place to provide the 
large amounts of plant material we will need in the future.
    My time is up, but I really would like to just plod on, if 
I may----
    Senator Dayton. I have to ask you, as I have asked 
everybody else, just to sum it up in 30 seconds, please.
    Ms. Adams. All right. The main point I want to make is 
productivity and viability of millions of acres of land in the 
Midwest are currently being threatened. David Tillman is a 
professor from the university. He looked at the environmental 
disaster that is happening in the Red River Valley because of a 
modern cultural cropping system. He found that the disease and 
pest buildup made the land up there so that it could no longer 
be used for agriculture. He said that the same thing was 
happening in the corn/soybean rotation. The rotation has broken 
down, and it is just going to be within a decade that all of 
these millions of acres will no longer be able to produce corn 
and soybeans.
    I have a long statement here which I really would 
appreciate you reading.
    Senator Dayton. I will read it, and we will submit it to 
the record. We can assure you of that. Thank you.
    Senator Dayton. Welcome.

 STATEMENT OF REV. CHUCK PURDHIM, (RETIRED), UNITED METHODIST 
               CHURCH, BROOKLYN CENTER, MINNESOTA

    Rev. Purdhim. I am Chuck Purdhim, United Methodist 
Minister, retired. I can't speak officially for the United 
Methodist Church, only as general conferencing to that, but in 
a recent session the general conference adopted a social 
principle statement entitled ``U.S. Agriculture in Rural 
Community in Crisis.'' One of the things that calls our 
churches to do, was to give serious research, aggressive 
research, to corporate ownership of agriculture and its effects 
upon life and rural areas and advocacy necessary, and responses 
based upon the finding of that research. The research not been 
completed as yet. They are still in the process. While not 
waiting for that to be done, our own Bishop here in Minnesota 
conducted a series of hearings among the farmers of our State 
beginning with up at the Red River Valley moving down through 
the western part of our State and down south through Dexter and 
Pine Island.
    Out of those hearings, several things became fairly clear. 
Out of the growing concern about the large conglomerates, big 
mergers are the source of our problem, as some of them put it. 
Paralleling that, a concern about ecology, stewardship, 
conservation. Because of U.S. Government trade sanctions, our 
products cannot be sold in certain countries. It will be that 
they be taken in the international dimensions of this whole 
issue as well.
    This is not just a farm crisis but a rural crisis. To keep 
in a larger setting, what happens to farmers happens to rural 
communities as a whole. We are not just listening to the 
farmers. We as a church are trying to listen also to a God, a 
God of justice, and a God of hope. The gentleman over here said 
something about this is God's country. That is more true than 
he realized. We and you are God's people. God will be seeking 
to work through you in terms of justice and hope as you work on 
this legislation. I would urge you to remember the task ahead 
of you is never as big as the powers behind you. Our prayers 
will be with you.
    Senator Dayton. Well said. Thank you very much.
    Senator Dayton. Welcome.

     STATEMENT OF PHIL SPECHT, DAIRY FARMER, McGREGOR, IOWA

    Mr. Specht. I am Phil Specht. I am a dairy farmer from 
McGregor, Iowa. I would like to add my 37 separate 
recommendations that were formulated through a process that 
included all 99 counties in Iowa, and this is as my capacity as 
Chair of the Ag Subcommittee of the Democratic Party Platform 
of Iowa. We came up with 37 separate recommendations, so I 
would like to enter this in the record and speak as a farmer.
    I came up here to thank Senator Wellstone for coming down 
to Iowa and lending the support in the depths of the hog price 
crisis and to stand up and speak against the lack of 
competition in the market. I want to ask you to include in your 
legislation a competition title. Make sure it is in there. I am 
all for conservation, the conservation security. Tom Harkin got 
it right. I second that. That is in here.
    I would like to thank Representative Gutknecht for his 
support in rotational grazing. That is how I farm. Nice to meet 
you, Senator Dayton. Thank you very much again, Paul. Keep 
fighting for justice.
    Senator Dayton. Thank you very much. We welcome our 
neighbors from Iowa. We have had good relations with both 
Senator Tom Harkin and Senator Chuck Grassley. Thank you for 
joining with us.
    Welcome.

   STATEMENT OF KEVIN RISTAU, JOBS NOW COALITION, ST. PAUL, 
                           MINNESOTA

    Mr. Ristau. Thank you, members of the committee. My name is 
Kevin Ristau. I am an ex-farmer, and I am presently education 
director of the Jobs Now Coalition. Jobs Now consists of more 
than 100 organizational members who have ignored their 
differences so they can focus on what they have in common and 
their belief that the opportunity to attain self-sufficiency 
through one's work is a fundamental community standard.
    Jobs Now's most recent attempt to define self-sufficiency 
is a report of the cost of living in Minnesota which figures 
the cost of basic needs for families of different sizes in each 
of the States, 13 economic developmental regions. In this 
report, if we look at the Minnesota counties, they are still 
especially dependent upon the farm economy. We find that living 
costs are 20 percent lower than the seven-county metro area. 
However, average wages in these farm counties are 44 percent 
lower.
    Like the Federal minimum wage floor, the farm price support 
program is a legacy of a new deal. Just as the purpose of the 
minimum wage was to put a floor under wages, so the purpose of 
the Federal farm program was to set a floor under farm prices. 
With the new deal programs, Government intervened in the 
marketplace to make the balance of power more equitable. As a 
result of this intervention, farmers received better prices and 
workers received better wages.
    Opponents of these new deal programs have always argued 
that this form of government intervention in the marketplace is 
counterproductive to low-wage workers and family farmers who 
would both somehow be better off without it. To suggest, 
however, that either low-wage workers or family farmers can 
flourish without market intervention is to imply that they have 
just as much market power as employers in agribusiness 
corporations. It is like refusing to install traffic lights at 
a busy intersection and then insisting that pedestrians or 
compact cars can get through it as easily as semi trailer 
trucks.
    We need to remember that neither farmers nor low-wage 
workers would ever have won anything if they had believed the 
market was an immutable law like the law of gravity. Ordinary 
citizens attained their victories only because they knew the 
market was a human construction that could be shaped for the 
good of their communities.
    If the market is a human construction and not a force of 
nature, then the implication is clear. The market can serve our 
human purposes. It should be used to create the kind of society 
in which we want to live.
    Thank you.
    Senator Dayton. Thank you. If you will submit a copy of the 
study for the record. We would welcome that.
    [The prepared statement of Mr. Ristau can be found in the 
appendix on page 91.]
    Senator Dayton. Welcome.

          STATEMENT OF LEWIS REIMAN, UTICA, MINNESOTA

    MR. REIMAN: My name is Lewis Reiman. I am from Winona 
County. Thank you, Senator Wellstone, Mr. Dayton, and Mr. 
Gutknecht. I am here to speak--probably one of the minority. I 
am here too for the elimination program. I believe I have seen 
firsthand the destruction of both the family farm and the soils 
that the programs have provided. The result of the current 
program is that the hay is gone. There is no hay left there to 
hold the soil. It is flushing it out. Civilizations have fallen 
because their soils have been gone. In our own hemisphere the 
example would be the Incas in Central America. What the 
Government does essentially is effectively paying only for row 
crops.
    What I would like to give you is a method to eliminate by 
paying a set amount per all tillable acres on the farm. Let the 
program run from 5 to 10 years or whatever is in between, and 
reduce each payment by that percentage each year and make the 
maximum payment only to $35,000 and reduce that payment by the 
reciprocal of that year.
    Another article I would like to speak to is the clause--I 
want to be watched for dumping on our markets. Our agriculture 
department has pricing mechanisms in place that they could 
watch for this when it is happening, and it could run a trigger 
in there that we could stop this dumping from happening 
quicker. I define dumping as a significant price below the 
whole market.
    Thank you, sir.
    Senator Dayton. Thank you. Thank you very much.
    Senator Dayton. Welcome.

STATEMENT OF NIEL RITCHIE, INSTITUTE FOR AGRICULTURE AND TRADE 
                 POLICY, MINNEAPOLIS, MINNESOTA

    Mr. Ritchie. Senators, Congressman, I am Niel Ritchie. I am 
with the Institute for Agriculture and Trade Policy in 
Minneapolis. On behalf of the National Family Farm Coalition 
and the National Farm Action Campaign, I will submit a farm 
policy agenda which is embodied into something called the 
family farm, which we would like you to consider as well.
    In terms of remarks, I would just say that people here have 
done an amazing job of covering the waterfront in terms of the 
challenges we face. We know the state of the rural economy is 
driven by local incomes that are derived from the land, and 
they are earned by farmers and ranchers. We know the Government 
has a role to play, a really critical role to play in leveling 
the playing field. We would call on Congress to consider a 
reinstatement of tried and true proven Government policies that 
work for farmers and consumers and taxpayers that include a 
mandatory farmer-owned reserve program, support prices that are 
set at a fair level, and a way to manage their inventories.
    Grain prices are adjusted for inflation, we know, and 
soybeans went down another 16 cents today because China is not 
the market we were promised. It is the lowest in three decades. 
Farm policy, Federal farm policy, has abandoned independent 
farmers in favor of a food production system that is controlled 
by large multinational agribusinesses. Issues affecting farm 
prices are felt locally, but the impacts are often the result 
of international trade agreements that are negotiated without 
assessing or balancing the true cost of and the impacts on our 
rural economies. We strongly believe that trade agreements 
should respect each country's needs and traditions for food 
security, for conservation of natural resources, and for the 
distribution of economic opportunity.
    We don't support fast-track process for negotiating 
international policies, and we call for a full debate in 
consideration of the issues that will provide a secure future 
for our nation's farmers and consumers.
    Finally, I would just say that programs that are dependent 
upon expanding export markets is the solution to the farm 
income without addressing the need for fair prices or 
predicated on flawed assumptions and only foster the vicious 
cycle. Our export-dependent policies failed miserably and must 
be replaced. The proof is in the numbers. It is time for 
Congress to look at home on the ground at the results and not 
at the flawed economic projections that they get from economic 
research services.
    Thank you.
    [The prepared statement of Mr. Ritchie can be found in the 
appendix on page 93.]
    Senator Dayton. Thank you.
    Senator Dayton. Welcome.

  STATEMENT OF JANICE DALEY, GRAIN FARMER, LEWISTON, MINNESOTA

    Ms. Daley. My name is Janice Daley. My husband, John, and I 
are grain farmers from Winona County, Lewiston, southeastern 
Minnesota. Thank you, Senators Wellstone, Dayton, and 
Congressman Gutknecht. I too am here to enter into the record 
the National Family Farm Coalition bill, the Food from Family 
Farm Act. I am just going to summarize a few things. As grain 
farmers, of course, the grain part of the bill is one of the 
most important parts. We call on Congress to pass a farm bill 
that will establish support prices at the full cost of 
production plus a profit and to get that profit out of the 
marketplace. Nothing bothers my husband more than Government 
payment checks so we can keep going and surviving. I mean, it 
doesn't take a rocket scientist to sit down, do our income tax 
every year, and see if we didn't have the Government payments 
where we would be. We would not be there.
    In this act they want to maintain the flexible planning 
options and establish short-term conservation methods to avoid 
overproduction, require labeling of meat and all imported 
foods, restore competition to the food, the farming food 
sector, negotiate fair trade agreements, and hold the USDA 
accountable whether it is on checkoffs or equal access to farm 
programs or farm credit programs.
    If we truly believe that the young must take over and must 
survive and be active farmers in the next generation, and that 
restoring farm income is the primary focus in getting it out of 
the marketplace, this is what the food from the family farm 
manager proposes. Targeting corn at loan rates at $3.45 a 
bushel on 125,000 bushels. Targeting soybeans at $8.63 a bushel 
on 35,000 bushels. Targeting wheat, $5.12 a bushel on 65,000 
bushels. This is for all of you a little more than 50 percent 
of cost of production. I will enter into the record some 
materials that I have to back that up.
    Thank you.
    Senator Dayton. Thank you. Please do submit your report for 
the record. Thank you.
    [The prepared statement of Ms. Daley can be found in the 
appendix on page 96.]

     STATEMENT OF SISTER KATHLEEN STORM, MANKATO, MINNESOTA

    Sister Storm. I am Sister Kathleen Storm from School 
Sisters of Notre Dame from the Center for Earth Spirituality 
and Rural Ministry in Mankato. I am not a farmer, but I grew up 
on a Minnesota farm, and I feel passionately about what is 
going on on a day-to-day basis with our farmers and our rural 
communities. I feel their passion and their pain as they try to 
find hope and meaning for themselves and their families.
    This is the kind of farm bill that the School Sisters of 
Notre Dame would like to support. We would like you to reward 
farmers for conservation practices that they already are doing 
even on a small part of their farm while they learn the 
benefits of protecting soil, water, and air. It takes a 
courageous farmer to find alternative ways to farm and protect 
the soil from water runoff, keep our water and rivers free from 
chemicals, raise animals humanely on grass, and keep the air 
clean. Give farmers incentives on how they farm. They suffer 
proposals for payments for conservation practices. I laud the 
intent of those proposals. I know several conservation 
proposals place caps on these payments. I urge you also to put 
caps on commodity payments as well. Close the loopholes that 
allow farmers to plant more and more acres because they know 
Government payments will support them even though it is causing 
escalating rental rates, increasing land values, and low grain 
prices and doing little or nothing to reduce erosion.
    I would ask you too to provide incentives through small 
grocery stores and institutions like ours in Mankato or 
colleges, hospitals, and restaurants to purchase locally grown 
foods. Why? Because they keep the food dollars in the local 
community which strengthens that community. This summer through 
a Bremmer Foundation grant we hired an intern who is helping us 
to buy vegetables and meats locally. We have found it a complex 
and confusing process as we try to work within the USDA 
regulations and rules.
    Last, I urge you to do what you can to turn around our 
chief food policy that is very costly for the environment and 
for family farms. Current public policy continues to move 
farmers off the land. When we have healthy food and healthy 
animals, we will have a healthy farmland and rural communities.
    Thank you.
    Senator Dayton. Thank you, Sister. Very well said.
    [The prepared statement of Sister Storm can be found in the 
appendix on page 99.]
    Senator Dayton. Welcome.

    STATEMENT OF KEVIN SCHEIDECKER, FILLMORE SOIL AND WATER 
           CONSERVATION DISTRICT, PRESTON, MINNESOTA

    Mr. Scheidecker. Thank you. My name is Kevin Scheidecker. I 
am the manager of the Fillmore County Soil and Water 
Conservation District. I am passionate about conservation. I am 
also currently the Chair for the Basin Alliance for the Lower 
Mississippi in Minnesota. The alliance is a local coalition of 
Government agencies, environmental groups, agriculture groups, 
and other organizations concerned with natural resource 
management and water quality in the Lower Mississippi Basin in 
Minnesota.
    One of our main strategies is to increase the amount of 
perennial vegetation in the basin such as hay, pasture land, 
and vegetative buffer strips in an effort to improve water 
quality in the Mississippi River Basin. The current trend of 
less livestock on the land has led to a dramatic shift from 
conserving land uses such as perennial pasture and hay toward 
attentive row-crop farming that addresses agriculture and water 
quality due to its impact on soil erosion.
    Livestock producers and conservation professionals need to 
spread the word that without a livestock presence in 
southeastern Minnesota, we are fighting a losing battle to save 
the soil. We need to have recognition that hay, pasture, and 
even livestock manure plays a large role in protecting 
agriculture by keeping soil in place while ensuring that the 
fertility is maintained.
    Therefore, the Basin Alliance is proposing a pilot project 
in the Greater Blufflands Region of southwestern Wisconsin, 
northeastern Iowa, and southeastern Minnesota that would 
recognize the importance of hay and offset the current biases 
toward row crops by designating hay a program crop eligible for 
benefits under the Federal Farm Program. This will put hay on a 
level playing field with the other commodity crops such as corn 
and soybeans and will allow hay production to be more 
profitable while giving a boost to livestock producers for 
their efforts without penalizing them for raising hay and 
maintaining pastures. I have submitted a copy of that proposal 
into the record.
    Thank you for your time.
    [The prepared statement of Mr. Scheidecker can be found in 
the appendix on page 100.]
    Senator Dayton. Thank you.
    Mr. Gutknecht. Let me just say just to my Senate 
colleagues, that is a great idea. We did get quite a bit done 
in the House-passed version, but we didn't get to that point. A 
pilot program in this region for hay would be something. If you 
could possibly get that done in the Senate bill where you can 
get the language, we will try to negotiate with you in the 
Congress community.
    Senator Dayton. Thank you. I haven't heard that before. 
Thank you, sir.
    Welcome.

 STATEMENT OF MIKE NOBLE, CROP AND LIVESTOCK PRODUCER, KENYON, 
                           MINNESOTA

    Mr. Noble. Thank you. My name is Mike Noble, Dodge County 
crop and livestock producer. Years ago I came to meetings to 
support freedom to farm. At the time I was changing the farm to 
meet market ideas. I was losing base acres because I was 
planting less corn. I was shocked to discover that a group of 
vegetable giants prevented me from growing vegetables on base 
acres. This caused many Midwest vegetable companies to close 
making freedom to farm alive. Ann was one of the folks to lobby 
for this. She since has taken my mode away with a checkoff 
issue.
    Last year I produced under contract organic soybeans. The 
buyer provided seeds. I grew and delivered the crop. The buyer 
refused to pay. Contaminated with GMOs. My local attorney said 
I had no chance because the contract was clear. Then listening 
to the skeptics of the judicial system in the country, you say 
that justice belongs to those who pay for it. I hired the law 
firm who did the Hormel turkey store merger. Hormel recently 
terrorized Austin into lowering property values from 32 million 
to 15 million. Broke their union by selling to ConAgra, making 
Hormel a captive independent instead of succumbing to a major 
merger mania.
    In days I received full payment of the soybeans. Not 
because the law protected me but because the buyer could not 
afford to fight the attorney I had hired.
    If I get a woman pregnant, I would be responsible for 
raising the child. If the sport of crops adultered by Monsanto 
destroy my crop, my reputation, and my income, Monsanto can sue 
me for stealing their technology. This is terrorism. Thousands 
of farmers and businesses have been sued out of business, quit, 
or sold out for fear of being ruined. Survivors have had to 
make partnerships with Monsanto.
    Monsanto has used outdated patents to bring disaster to 
America's ag entrepreneurs and acquires vast portions of 
agriculture's value-added seed industry from family and rural 
community to add to centralized corporate ownership.
    Today I sell nothing to these corporations that manipulate 
agriculture, but they all want my crops, my brands, my name, 
and my product. I do not fear fire, hail, and flood but face 
everyday contamination, corporate preditation, corporate tax, 
and set-asides. I received $11,000 in welfare from the Farm 
bill, but I could have lost $40,000 to this one Monsanto event.
    Senator Dayton. Very powerful statement. Thank you.
    [The prepared statement of Mr. Noble can be found in the 
appendix on page 105.]
    Senator Dayton. Welcome.

STATEMENT OF RON DURST, ON BEHALF OF ASSOCIATED MILK PRODUCERS 
                              INC.

    Mr. Durst. My name is Ron Durst. I am a dairy producer from 
Dodge County. I am here today representing Associated Milk 
Producers Incorporated, New Ulm, Minnesota. On behalf of the 
dairy producers of Associated Milk Producers, I want to thank 
the members of the U.S. Senate Agriculture Committee for 
conducting a hearing in the heart of both dairy and AMPI 
country. As Senators Wellstone and Dayton as well as 
Representative Gutknecht know, dairy is synonymous with Upper 
Midwest agriculture.
    I come to you as both the member of the AMPI Board of 
Directors and a Minnesota dairy producer. For more than 100 
years, the Durst family has farmed in Dodge County near 
Mantorville, Minnesota. I currently operate a dairy and grain 
farm in partnership with my two brothers.
    In addition, I have been a member of the AMPI Board of 
Directors for 1 year. AMPI is the largest milk marketing 
organization in Minnesota and the cooperative's seven-State 
membership area. Together, 5,000 dairy farms move milk from the 
farm to the market. With 14 manufacturing plants located 
throughout the Upper Midwest, we manufacture more than 5 
billion pounds of milk into a complete line of dairy products.
    When deciding what constitutes an effective farm bill, 
please consider the need for a stronger milk price safety net, 
funding an effort to clean up the Johne's disease, and 
eliminate regionally based dairy policies.
    First, let's look at the need for a stronger safety net. 
This industry has been operating under a dairy price support of 
$9.90 per hundredweight throughout the 1990's, the same level 
included in the farm bill legislation passed by the U.S. House.
    I am confident that any dairy producer in the room will 
agree that $9.90 is not an adequate safety net. We had a full 
dose of $9.90 last year and only survived with cheap grain, 
LDPs, and supplemental payments totaling nearly $1 per 
hundredweight. It simply does not make sense to write a long-
term farm bill based on prices we know are too low.
    In this farm bill we must do better. Dairy producers need a 
meaningful price support program or supplemental payments when 
dairy prices fall below specified levels. There are credible 
legislative proposals that seek to supplement the Class III 
milk price when market prices fall. The benefits of these 
programs could be effectively targeted to our producers or our 
need, without causing major market distortion.
    To be effective, both price supports and supplemental 
payments must be coupled with inventory management and 
consistent dairy import policies.
    Inventory management is an everyday occurrence in every 
other business. Why not agriculture? We can argue the details 
and mechanisms for implementing inventory management, but it is 
difficult to argue the logic.
    The second request I have is to finance an effort to clean 
up Johne's disease. It is a contagious, chronic, and usually 
fatal infection that can affect all ruminant animals. A 
national coordinated effort, in conjunction with the States and 
cattle industries, must be implemented and funded.
    Finally, I must ask you to eliminate regionally based dairy 
policies such as dairy compacts. Compacts benefit some groups 
of producers at the expense of others.
    Reliable economic studies by the likes of USDA and others 
show that relatively high prices for some dairy producers 
actually lower prices for others.
    Though I realize dairy compacts are not within this 
committee's jurisdiction, they are part of today's overall 
dairy policy mix, and you should oppose their continuation.
    Committee members, thank you for this opportunity to 
testify only 30 miles from my farm. Strengthening our country's 
milk price safety net, funding an effort to clean up Johne's 
disease, and the elimination of regionally based dairy policies 
will ensure the next generation of the Durst family can milk 
cows.
    Thank you.
    Senator Dayton. Thank you, Ron.
    Welcome.

         STATEMENT OF VICTOR ORMSBY, WINONA, MINNESOTA

    Mr. Ormsby. Thank you for the opportunity to appear before 
you. My name is Victor Ormsby. I have been a long-time organic 
vegetable grower and wildflower grower from Winona County. I am 
a soil and water supervisor from Winona County and a recent 
appointee to the Board of Water and Soil Resources in the State 
of Minnesota. The State agency is in the process of drafting a 
policy statement on the Farm bill, which you will be receiving 
down the road, I am sure. I am here today as a member of the 
Land Stewardship Project, and I would like to speak 
specifically to the EQIP program.
    We feel that the EQIP program must be adequately funded. It 
was proposed that we fund it at a level of about $1.8 billion a 
year and that there be adequate resources for technical 
support. We also feel we ought to have revised standards to 
allow for reduced-cost conservation options. A lot of times in 
the soil and water conservation district office, we will use 
State and county funds to cost-share on the lesser-cost 
practices because NRCS standards are pretty strict and would 
only fund high-priority practices or high-cost practices.
    We also feel that there should be transition payments to 
encourage crop biodiversity for annual cropping and intensive 
rotation of grazing systems as a part of EQIP. We feel that 
feedlot money should not be used to fund new or expanded 
feedlot operations. In Minnesota we limit cost-share funding 
for feedlots to existing feedlots with serious environmental 
problems. It is designed to bring existing feedlots into 
compliance with clean air and clean water standards. I feel 
cost-share and feedlot should be limited to existing feedlots 
with the environmental problems. Funding for EQIP should not be 
taken from the Conservation Reserve Program. It should not be 
taken from the Wetland Restoration Program. It should not be 
taken from wildlife habitat incentive programs nor from any of 
the forest conservation programs. The management of EQIP must 
stay with NRCS.
    Thank you.
    Senator Dayton. Thank you, Victor. Thank you very much. 
Very well said.
    Senator Dayton. Welcome.

        STATEMENT OF TOM HOSCHEIT, CALEDONIA, MINNESOTA

    Mr. Hoscheit. Thank you, Mr. Wellstone and Mr. Dayton and 
Congressman Gutknecht. My name is Tom Hoscheit. I am from 
Caledonia, Minnesota, the very southeastern corner. Thank you 
for giving me this chance to talk to you and express our 
concerns.
    I farm in southeastern Minnesota with my dad and my 
brother. My dad gave me an opportunity to join his farming 
operation over 25 years ago, and I am very thankful to him for 
that opportunity. Unfortunately, I don't know if I can do the 
same for any one of my four sons or daughter. Not that I can't 
do it, but don't know if it is fair to them to do it. How can I 
start them out farming and not be able to compensate them for 
the amount of time and work that it takes just to get by, let 
alone make any money when they can do so much better away from 
the farm?
    The hardest thing I had to do a year ago was to say no to 
my oldest son about coming into my operation. What is even 
harder is realizing how good he would be for our business, but 
it is not fair to him. I don't want to see my kids in 25 years 
having to come here like I am today begging you to help and 
continue to hope the Government will keep coming up with enough 
money to keep us operating for another year. It is unfair to 
see the big co-ops that were once Midwest co-ops merge with the 
co-ops in the West and the South and now the East. They are 
able to take advantage of the Northeast Compact and California 
markets and, in turn, hurt our prices here in the Midwest.
    We as dairy farmers need better prices. The price support 
needs to be raised. We need to get rid of all the different 
regional price structures, and all the milk should be priced 
the same. Products and imports from other countries need to be 
controlled, especially when they are not real dairy products 
but are able to be labeled as real dairy products such as MPC. 
We need better prices to stay in business so that we can in 
good conscience secure the future of the family farm so that 
some of my sons or daughter and other young people can look 
forward to a dream of joining in the family business.
    Thank you for your time. We hope that you will do your best 
to secure a bright future for the next generation of farmers.
    Senator Dayton. Very powerful statement, Tom.
    Senator Dayton. Welcome.

         STATEMENT OF LORRAINE REDIG, WINONA, MINNESOTA

    Ms. Redig. My name is Lorraine Redig. We farm here near 
Winona, Minnesota. Our family has been on a century farm for 
quite a while, and our sons that are farming there have to have 
other work to support their farming habit, which is not fair.
    After farm production leaves the farm, everyone else who 
handles it markets it as the demand arises at a profit. Justice 
demands that producers of raw farm production are also able to 
follow the same business rules. Before it leaves the farm, they 
should have the same business rules. Justice demands that 
farmers and laborers who produce the food receive a fair share 
of what consumers spend for food. Farmers don't have the 
structure to enable us to market our production as the demand 
arises at a profit. The buyer traders have filled that vacuum. 
They discriminate against those who enter raw production from a 
certain economic stream. The supply and demand economic system 
is called a law of nature, but it is not. It is man-made 
policy, and it is unjust policy.
    The buyer/trader set prices on both ends of their business 
at great profit to themselves. That is the injustice that we 
face. We ask you to form a farmer-run democratic board of trade 
to replace the Chicago Board of Trade and every other structure 
that enables the buyers to put production they don't yet own up 
for sale at auctions that they control to find out how little 
they have to pay for what they want to get. The only trade that 
a just nation can afford is trade that profits everyone 
involved. The farmers' board of trade would market the supply 
for which there is a demand at a profit to the producers. This 
supply would come equally from all producers, large or small. 
When the supply of small producers is exhausted, the large 
producers would have an equal opportunity to sell as demand 
arises. If there isn't a market for something, it would be held 
until there is a market as the same with other businesses do. 
Thank you.
    [The prepared statement of Ms. Redig can be found in the 
appendix on page 109.]
    Senator Dayton. Thank you, Lorraine.
    Senator Wellstone. Again, to be very brief, when Lorraine 
said ``democratic board of trade,'' that was with a small 
``d,'' which is the most important of all. The second thing is 
I would like to, as a point of privilege, Senator Dayton and 
Congressman Gutknecht, I would like to thank Lorraine and Art 
for your--when I hear you speak of the Bishop, because you put 
together your values and your deep religious faith with why we 
are all here and how important family farmers are to this 
country. I would like to thank you for years and years and 
years of having such a strong voice. I would like to thank Tom 
earlier who preceded you. You were walking back as Senator 
Dayton was saying ``very powerful.'' Everybody has been, but I 
want you to know that the way you put things and you talked 
about your son connected with everybody in this room.
    Thank you.
    Senator Dayton. To extend the hearing until 3:30, we have 
about 20 more witnesses that are in line here. That is going to 
be close to 40 minutes. If anybody else wants to speak, if you 
would join the ranks now. I am going to ask after this next 
speaker, I am going to close it off at that point so we can 
continue. Welcome. Thank you.

  STATEMENT OF KEITH SPELTZ, DAIRY FARMER, SOUTHEAST MINNESOTA

    Mr. Speltz. My name is Keith Speltz. I am a dairy farmer 
from southeast Minnesota here. Just a few comments on the 
reports that the Government sends out every month. You are 
telling the whole world what our production is for corn, 
soybeans, milk, and cheese, so they all know what we are 
producing, how much we have, and then we expect to get a fair 
price. It is like playing poker and showing your cards before 
you bet. Everybody knows what we have, and that is not fair. 
The Government is doing this, and agriculture, I believe, is 
the only industry they do it for. It is just not fair to the 
people in agriculture. I don't know what the answer is, but we 
need supply management of some sort, and we need free trade. I 
don't think there's free trade in the world the way the 
Government handles things now.
    Thank you.
    Senator Dayton. There are outputs for production imports in 
almost every commodity and product. However, your point is well 
taken. Thank you.
    Senator Dayton. Welcome.

       STATEMENT OF MARGARET ZIMMERMAN, WASECA, MINNESOTA

    Ms. Zimmerman. Senators Dayton and Wellstone, and Bishop 
Harrington--we have to go to the top here--I am Margaret 
Zimmerman from Waseca, Minnesota. I am bringing this issue to 
you today because we have gone--in the past 2 years, we have 
gone to our local township officials, our county officials, our 
State officials, and we are still in the midst of the whole 
battle regarding feedlots. A large feedlot is being proposed 
for our community in Waseca County. It would be a contract 
operation with Wakefield Pork, which already has several 
operations in our area that are poorly managed. We are working 
with the Land Stewardship Project and have formed a group 
called Citizens' Concern for Waseca County to work on this 
issue and other feedlot issues in our State. This proposed 
operation is 2,400 sows or 960 units, under the mandatory 
threshold, just under the mandatory threshold of 1,000 animal 
units that require an AEW review or NPDS permit. This feedlot 
is being proposed in a drained wetland, and the manure will be 
spread on this drained wetland. It is also known as the famous 
Moonan Marsh Federal wildlife area, just less than a mile from 
me.
    The creek is officially listed as impaired--Crane Creek is 
officially listed as impaired with MPCA because of the elevated 
levels of fecal coliform. This watershed ultimately leads to 
the Mississippi River. Our group met with members of MPCA on 
Thursday, August 16th, and we were not able to get a 
satisfactory answer to our request for an NPDS. We request that 
you send a letter to the EPA and the MPCA urging them to follow 
the existing Federal law by requiring an NPDS permit. Urgency 
is required as the MPCA will rule on this permit issue as early 
as yesterday, and construction of the project could begin at 
any time.
    Senator Dayton. Could you give us the information after the 
hearing? I will be glad to followup with you on it. This came 
up as Friday as well.
    Ms. Zimmerman. I do have one of these sheets for each of 
you.
    [The prepared statement of Ms. Zimmerman can be found in 
the appendix on page 110.]
    Senator Dayton. Thank you. I am going to close the witness 
list with the two gentlemen who are standing there. However, 
there are 22 witnesses still remaining. At 2 minutes apiece, 
that is 44 minutes. I am going to ask you to strictly observe 
the 2-minute limit, please, and we will conclude. Thank you.

STATEMENT OF LES EVERETT, WATER RESOURCES CENTER, UNIVERSITY OF 
                           MINNESOTA

    Mr. Everett. I am Les Everett with the University of 
Minnesota with the Water Resources Center. We have to look at 
what is it the taxpayer can be justifiably constituted by. The 
first one would be conservation, and that has been addressed. 
The second one would be the income stabilization. Not income 
guarantees but income stabilization in the farm community. Then 
we have to ask if proposed solutions actually make the problem 
better or worse.
    With regard to conservation, that the Conservation Security 
Act, the standard EQIP program, a return to conservation 
compliance, and the conservation education can all assist with 
that. With regard to income stabilization, the main factor 
seemed to be commodity supports. I doubt that those will 
actually reach the objective of income stabilization. They do 
more harm than good. They tend to increase surpluses because 
they encourage more production and drag down commodity prices. 
They drag up rents and land prices and reduces, therefore, the 
ability to survive in poor times. This tracking of the total 
price, that is, the commodity price plus the support, that 
relation to rents and income have been documented in the 
University of Minnesota research.
    Those commodities support and reduces flexibility, respond 
to the market and to diversify into areas like land, 
alternative uses, and it increases soil erosion and water 
pollution, as we have seen this year in southeast Minnesota and 
southern Iowa for our family farms. We need to, in terms of 
income stabilization, look at more solutions along the line of 
tax and financial incentives for investment of farm--or in 
alternative, farm enterprises in the good years, in the good 
income years, with the option to cash in on farm investments 
for all farm investments without tax penalty in low-income 
years. Let's do the income stabilization and financial and tax 
markets not in the commodity markets.
    Thank you.
    Senator Dayton. Thank you.
    Senator Dayton. Welcome.

       STATEMENT OF GERALD TUMBLESON, SHERBURN, MINNESOTA

    Mr. Tumbleson. Hello. Welcome, Senators Dayton, Wellstone, 
as well as Congressman Gutknecht. I often wonder if the 
Congressman's green bus has anything to do with your bus, 
Senator Wellstone. Maybe not. I like the idea that you are 
looking at this farm bill with a 10-year destination. That 
makes a lot of difference to a lot of us out here. I have two 
sons farming and simply for him--when I brought the two sons in 
farming, I had a lot of problems with the child welfare 
department since I have done that. I do think that once you can 
put it into a 10-year program, farmers will adapt. This 1996 
adjusted from the day it started, and we didn't know where we 
were. What I like about the 10-year is so I can look forward. I 
want to compliment the House for putting theirs together with a 
voice vote. I don't know that that has ever been done before. 
Therefore, we have both sides on this issue coming together. 
The Senate will be able to do the same thing mainly because 
agriculture has become that important in the United States.
    Big business will exist, and if anybody knows about Dupont, 
they now have eliminated some of the hydrocarbon industries in 
their department. They have produced carbohydrate industry in 
their department. They are going that track. Now, we as farmers 
understand that. We are going to move in that direction, but we 
want to own it. We want to own it not as farmers but as rural 
communities. Rural communities are the farmers and the people 
living out there. We can do that if we have some tax incentives 
or some way to put that together. The reason for that is we can 
crop this land because we are efficient in energy when we do 
that. Our leaves on our corn plants are taking energy from the 
sun and convert. We are making ethanol with 100 Btus to get 135 
Btus back. The hydrocarbons use 100 Btus and get 85 Btus back. 
We in agriculture are going to be able to do that. We are going 
to be able to do it with our root structure, with our holding 
the soil. New Orleans is built on our topsoil before we had 
crops here. We have to understand where the environment is 
going and where we are heading. I am totally confident that you 
are going to do that. I thank you very much for having two 
Senators on the Ag Committee.
    Senator Dayton. Thank you.
    Mr. Gutknecht. We do have copies of summaries of the House-
passed version. He made a point. It is an important point. That 
the ag bill that passed out of the Ag House Committee did pass, 
I believe, on a unanimous vote. It was a voice vote. If there 
was a no vote, we didn't hear it, which is really 
revolutionary. We look forward to the Senate bill when it comes 
out and to negotiate with them. Anybody who wants a copy of 
this, if we run out, Dick is holding up some in his hand up 
there. Before you leave, grab a copy and at least take a look 
at it. It is not perfect, but we were able to get it passed on 
a voice vote. When you start looking at the differences in 
agriculture around the country, that is a remarkable thing.
    Senator Dayton. Thank you.
    Senator Dayton. Welcome, sir.

         STATEMENT OF LARRY LARSON, SARGEANT, MINNESOTA

    Mr. Larson. Thank you, Senator Wellstone and Senator Dayton 
and Congressman Gutknecht, for the opportunity to express our 
views here this afternoon. I am Larry Larson from Sargeant, 
Minnesota. I also represent Mower County Farm Bureau. We farm 
in Sargeant family farming with my brother, his two sons, my 
son, and my wife. We are in livestock and corn and soybeans. We 
also have a commercial grain and feed elevator. I spend most of 
my time with the seed end of it since my son came into our 
business and also do crop advising with my seed customers. I 
have about 100 seed customers that I work with each year and 
get a good opportunity to see and kind of understand how they 
are doing in their farming operation. Not only that, how they 
are doing economically and what they do need. I do have quite a 
few young farmers that are quite strong farmers in our 
community, although the present farm program has given enough 
dollars to keep this going, but one of the things that I fear 
happening is if they lower the dollars on the commodity 
programs on these people that there would be real difficulty in 
larger farms coming in and taking over. At the present time it 
is just about holding its own. The only people I see dropping 
out in our area are those that are more of an older age and 
part-time farmers, and it is just easier to rent out as 
compared to that.
    I would like to see those dollars keep coming in whatever 
form you have to work at to do that. I also think more work 
needs to be done in the area of conservation. That is really 
important. We haven't addressed that properly, and there is a 
lot more we could do there. One other thing is basic research. 
More emphasis needs to be put on basic research. My time is up, 
but dollars need to be put there.
    Thank you.
    Senator Dayton. Thank you for honoring the time limit. 
Thank you.
    Senator Dayton. Welcome.

    STATEMENT OF RICK HANSEN, INVER GROVE HEIGHTS, MINNESOTA

    Mr. Hansen. Thank you. Distinguished members of the 
committee, my name is Rick Hansen, and today I am speaking on 
behalf of the Minnesota Association of Soil and Water 
Conservation District and also the Dakota County Soil and Water 
Conservation District. What I would like to say is that 
conservation is the key to a broadly publicly supported farm 
bill. Farm policy needs to have broad public support. Speaking 
here for the Minnesota Association of Soil and Water 
Conservation directs, we represent 89 districts with 455 local 
elected officials, urban, rural, and suburban soil and water 
conservation district supervisors. We are here to offer a 
partnership working with NRCS conservation to implement 
conservation practices.
    I would like to focus just on three general areas and then 
provide written testimony for the committee. First we would 
like to maintain a voluntary incentive-driven approach to help 
private landowners and managers protect their soil, water, 
wildlife, and related resources. Two, we would like to increase 
local leadership. That involves implementing the programs, 
setting priorities, developing policies, and advocating natural 
resource conservation management. Third, we would like to 
correlate conservation program funding with implementation 
funding. Whether it is called technical assistance or 
implementation dollars, when the programs are there, there 
needs to be that assistance to put the projects into the 
ground. Often that may not be there when farm programs are 
developed.
    Again, having thought implementation dollars, speaking on 
behalf of the Dakota County Soil and Water Conservation 
District, I want to indicate that we support the Federal Farm 
Conservation Security Act that was introduced by Senator 
Harkin, and that was also supported by the urban region, area 
four, of the Minnesota Association of Soil and Water 
Conservation District, and I have the resolution for that. Then 
finally I have the names and addresses of 34 folks who signed a 
petition who couldn't be here today to increase the 
Conservation Reserve Program from its current 36.4 million 
acres to 45 million acres. I would ask for your support for 
that.
    Senator Dayton. Thank you. We will submit that to the 
record, Rick. Chairman Tom Harkin, that is his area, so you 
will be sure he will support your bill. Thank you.
    [The prepared statement of Mr. Hansen can be found in the 
appendix on page 118.]
    Senator Dayton. Welcome.

       STATEMENT OF RONALD BEHOUNEK, HAYFIELD, MINNESOTA

    Mr. Behounek. My name is Ron Behounek. I farm in Dodge 
County with an 18-year-old son and a 24-year-old son. They told 
me I was wasting my time coming here, but I told them I am 
coming anyway.
    Senator Dayton. Thank you.
    Mr. Behounek. The current Farm bills really aren't saving 
the family farmer, but boy, are we saving agribusiness. 
Monsanto, John Deere, Pioneer, the whole lot. Are they going to 
talk about conservation? I want to have some input on my own 
farm. I don't want somebody coming and telling me what I have 
to do and exactly do as they say. I want to be part of that 
decision.
    The next thing, if you want my sons to farm, you are going 
to have to close one big tax loophole, and that is using 
agriculture land for tax shelters. That has driven up farmland 
like you wouldn't believe. I have seen it done. I have seen 
guys that get a huge amount of money for a piece of land that 
they happen to own up by the Cities, come down into southern 
Minnesota here, and pay whatever they have to because they are 
going to save taxes. Every real estate man hears about it, and 
it is all worth that.
    The next thing is I am one of the lucky ones that has a 2-
acre patch of wetland. There are no frogs. There are no 
crawdads. There is no water on it. It will raise corn. It is 
kind of a difficult place to get to. It really raises ragweeds 
real nice. This 2 acres is causing flooding for another 10 
acres. The water that washes onto it, it brings the ragweeds on 
it, so I have to use more chemicals to kill them doggone 
things. Is that what the environmentalists want?
    I guess that is all I have to say.
    Senator Dayton. Thank you.
    Senator Dayton. Welcome.

         STATEMENT OF MIKE MUELLER, WINTHROP, MINNESOTA

    Mr. Mueller. Senator Wellstone, Senator Dayton, and 
Representative Gutknecht, my name is Mike Mueller. I am from 
Winthrop, Minnesota. I am the ag loan officer in the State Bank 
of Gibbon. My wife and I are farmers and landowners in Sibley 
County. We participate in the Conservation Reserve Program and 
have land in the successful reinvested Minnesota and the 
Conservation Reserve Enhancement Program. Thank you for this 
opportunity to appear here today to talk to you about the 
conservation title to the 2002 Farm bill.
    I am a strong supporter of the Conservation and Wetland 
Reserve Program, and they should be reauthorized and expanded 
in the next Farm bill. It has been my experience as a loan 
officer that CRP helps the risk by cash-flow for farmers. 
Farmers and landowners that have a portion of their farm in the 
Conservation Reserve Program are simply better off on a cash-
flow standpoint. We all are rewarded from the environmental and 
wildlife benefits. In my opinion, the recent changes in the CRP 
encourages farmers to plan more diverse cover types that have 
strengthened the program and have proven excellent wildlife 
habitat. In addition to the economics that will be provided by 
CRP payments, farmers and landowners can address serious water 
quality problems on a voluntary incentive base approach to 
participating in the ongoing CRP buffer initiative and 
Minnesota prep program.
    Continuing these successful programs should be a top 
priority in the next Farm bill conservation title. In my view, 
conservation programs provide valuable opportunity for family 
farmers. The ability to diversify their farming operation 
through conservation programs may allow them and future 
generations to continue the farm legacy.
    I see I am out of time. Mr. Chairman, I work in a small ag 
bank and in a small rural town, and in my experience 
conservation programs are one of the most successful 
agriculture programs. I would encourage you to reauthorize and 
expand the programs like CRP and WRP and to extend opportunity 
to incorporate these conservation-priced programs on all farms, 
specific CRP with the wetland reserve program and the new 
farmer wetland 100,000-acres programs also.
    Thank you.
    [The prepared statement of Mr. Mueller can be found in the 
appendix on page 124.]
    Senator Dayton. Thank you, Mike, for speaking from a 
lending perspective. That is very helpful. Thank you.
    Senator Dayton. Welcome.

        STATEMENT OF BARBARA UPTON, FOUNTAIN, MINNESOTA

    Ms. Upton. I am Barbara Upton. I am a retired teacher. I 
live on 40 acres in Fillmore County. I wrote a letter to the 
editor, and I encourage all of you--you all have something 
important to say. I hope you are writing to the editor. This is 
one that I wrote in March of this year. ``Please, please, 
Fillmore County residents, stop and think before you open our 
area to developers and/or new residents on 10-acre wood lots.'' 
Now, I am quoting a previous article in the Fillmore County 
Journal. Now, in the year 2001 we have fertile land, plenty of 
woods, and relatively unpolluted air and water. This will all 
change as rapidly as the population increases. Do we want 
another suburb here in these very erodible hills? Water should 
be the key to our decision. Whether it is either too much, as 
in flooding--we have had 2 years in a row experiencing that--or 
too little, which is drought. Pollution often takes years to 
detect, sometimes only aftereffects, such as fish killed, are 
observed. Last spring gave us an example of flood damage when 
the gravel roads were washed out needing help from FEMA to pay 
for repairs.
    Now, in late August 1964, I moved into this area, rural 
southwest Minnesota, from Riceland. I brought my belongings in 
a big truck. There was no hay available here. The so-called 
corn was about a foot high. It hadn't rained all that summer. 
Wells were going dry. Many springs dried up. Neighboring farms 
had water hauled in from the Preston creamery using milk trucks 
for their livestocks and themselves. Apparently the lowered 
water table could not handle the needs of the population that 
lived here in 1964. What will happen with many more wells using 
the water?
    Senator Dayton. Thank you. You are able to submit that--if 
you want to submit any additional comments for the record, 
please do.
    Ms. Upton. I do recommend this book, ``Mad Cowboy.'' This 
is from Howard Lyman. He was sued, along with Oprah, for 
talking about the potential for mad cow disease, and he is very 
much involved and hoping to save the family farm. He used to be 
a corporate beef producer. He is now venturing all over the 
world.
    Senator Dayton. Thank you, Barbara. Thank you very much.
    Senator Dayton. Welcome.

          STATEMENT OF DWIGHT AULT, AUSTIN, MINNESOTA

    Mr. Ault. My name is Dwight Ault. I am from Austin. I have 
farmed for 40 years, and I appreciate this opportunity. We need 
a hell of a lot more dialog in this United States than we have, 
and this allows some. I am in general livestock. I am partly 
organic, not quite all this year, but anyway, mixed livestock 
and small crop farmer. I have been quite sensitive toward the 
treatment that the small farms have been given, and they have 
been talked about by everybody, when Wendal Barry says the 
politicians talk about saving the family farm, but nobody does 
anything about it. These people we have here today are an 
exception. Pray God I hope you are, and I wish you luck.
    My biggest hang-up or my biggest gripe about the Federal 
program presently is the LDPs. If I offend somebody--and I 
probably will--I don't know why in tarnation heck we haven't 
talked about it. Because LDPs are the most unjust--and I should 
read my editorial because I had one in the Des Moines Register 
yesterday on LDPs. They are the most asinine attempt for 
justice. I don't know why they were ever born. They play no 
part in helping the smaller farmer. I don't know why people 
haven't griped about them before. I suppose, like me, we get a 
little bit compared to a lot to the large farmers or the 
corporate farms, but we don't want to complain.
    I am going to give--I see I am just about out of time and--
--
    Senator Dayton. If you want to submit your editorial for 
the record----
    Mr. Ault. Yeah, I will leave you the editorial. In 
conclusion, it is time that we really take to heart where we 
are going in the United States. I see Monsanto running the 
Midwest and running the East along with Cargill, along with 
Pioneer and Dupont, and when are we going to say enough is 
enough. I mean, we keep going, and it is time that people raise 
hell if we don't get some decent legislation. The monkey is on 
you three peoples' back along with a lot more of your 
compatriots. I really think that we are due.
    Senator Dayton. We will raise heck anyway. Thank you.
    Senator Dayton. Welcome.

           STATEMENT OF LARRY GREEN, FULDA, MINNESOTA

    Mr. Green. My name is Larry Green, Senator Wellstone, 
Senator Dayton, and Representative Gutknecht. I would also like 
to thank Mr. Peterson for bringing that famous picture here 
today. Because, Senator Dayton, you asked for a solution in 
that picture. There is a very big solution in that picture. A 
little over a year ago, we were right close to that facility 
with President Clinton. That was sponsored by all the famous 
commodity groups that were going to save us with PNTR with 
China. Today we get a nice little blow. They canceled 13.2 
million bushels of beans, stuck it in my pocket. This year now 
all we are hearing is biodiesel, carbohydrates, and a whole 
bunch of other crap.
    Your solution is very simple. We are down to about $80 
billion in a farm bill. We pay in about $16 million a week, $14 
to $16 million a week in checkoffs. The national defense budget 
runs around $400 billion a year. You people should hire all 
these commodity groups. Maybe they could get the national 
defense down to $200 billion, and we would have some more money 
around this country.
    Thank you.
    Senator Dayton. Thank you.
    Senator Dayton. Welcome.

      STATEMENT OF ROBERT M. AUSTIN, NEW PRAGUE, MINNESOTA

    Mr. Austin. Senators, Congressman, my name is Rob Austin. I 
am from New Prague. I am a taxpayer, and what I would like to 
see is I would like to see stopping the use of money for the 
overproduction of the corn and beans and start using this money 
for conservation of soil and water and wildlife conservation. I 
also would like to see--stop listening to the Soybean Growers 
Association and the Corn Growers Association--they seem to be 
the only two that I see in the newspaper--and start listening 
to people who are more in favor of the sustainable organic 
drink marketing type of agriculture. The farmer, land 
stewardship project people, Minnesota Institute of Sustainable 
Agriculture, Institute for Agriculture and Trade Policy, and 
the Minnesota project. Above all, here's the big one, the 
taxpayer. There hasn't been any--we make up 99 percent of the 
population, and we have had no input into this thing.
    I know I am being politically incorrect here, but I am a 
61-year-old pissed-off taxpayer who is tired of not being able 
to have his say in how this money is being spent in our farm 
program. I would like to address this to the Senators today. I 
would like to see, for no better choice of words, this farm 
road show--have one in the Metro area. There should be two of 
them. There should be one in the southern part of the Metro 
area and one in the northern part of the Metro area. We have 
one here, 25, 30 miles from the Iowa border. We need to have 
something that is more up in the Metro area where the taxpayer 
can have his input into this thing, too.
    Senator Dayton. Paul suggested that, too, at the 
Worthington hearing. That is an excellent suggestion. We are 
going to try and put this together.
    Mr. Austin. You are going to do this thing?
    Senator Wellstone. Absolutely. I will tell you something. 
This is exactly the right place today, and it is great of the 
legion to let us do it, but first of all, it is a healthy thing 
that you are a, quote, 63-year-old----
    Mr. Austin. Sixty-one. Don't make it any worse.
    Senator Wellstone. I just wanted to see if I could get you 
more pissed off. 61-year-old. You look 31. How am I doing? I 
will tell you, I am absolutely convinced--I wrote a note to 
Mike, and of all the things I have heard today, I keep hearing 
conservation. I have never been at more farm gatherings, Mark 
and Gil, in the last year where I have heard more people talk 
about land stewardship and more people talk about conservation 
and more people talk about the whole question of credits 
including for doing good practice of land in production above 
and beyond CRP. The religious community, Bishop, is going to be 
key to this. We have to have one of these gatherings where we 
have farmers and rural people coming from all over the State of 
Minnesota to Metro with total Metro media focus on the whole--
the direct connection between land stewardship, conservation, 
decent price, real competition, the quality of food, the 
affordability of food. The key for this for people that don't 
live in the farm and rural areas, we have to bring them in. we 
can, and we are definitely going to have a major, major 
committee hearing up there.
    I just want to say that these articles that you work for 
the fellows, the ranch bothers down in Cannon Falls, to me that 
is what agriculture is all about, and this is what direction we 
should be going.
    Senator Dayton. Thank you.

        STATEMENT OF ROGER DALE, HANLEY FALLS, MINNESOTA

    Mr. Dale. Good afternoon, Senators Wellstone, Dayton, and 
Congressman Gutknecht. I am Roger Dale. My wife and I have a 
family farm in Yellow Medicine County. We farmers produce 
something everybody needs to survive on: wholesome food.
    Minnesota is an ag State. I truly believe that policymaking 
has made it to grass-roots level, and hopefully today things 
will get done here. With the representation in the Ag 
Committee, we have a golden opportunity if we can get our 
thoughts together. I would like to thank you for the work you 
have done in the past and hopefully for what will be done in 
the future. I would like to thank you for working for the 
Soybean Growers, ASA, for listening to them, for the soybean 
loan rate. If it wasn't for them, a lot of us wouldn't be here. 
Thank you, folks, for coming out today, and have a good trip 
home.
    Senator Dayton. Thank you very much for coming over from 
Yellow Medicine County. Thank you.
    Senator Dayton. Welcome.

 STATEMENT OF CHRIS C. PETERSEN, VICE PRESIDENT, IOWA FARMERS 
                    UNION, CLEAR LAKE, IOWA

    Mr. Petersen. Thank you. My name is Chris Peterson. I am 
vice president of Iowa Farmers Union.
    Senator Dayton. Thank you for coming.
    Mr. Petersen. Yeah, they keep letting me come across the 
border, so I will just keep coming.
    We need to get away from a system here, a farm policy that 
eliminates independent family farmers. This has been the trend 
for years. I want to talk about a couple of points. One of them 
that hasn't been brought out today is campaign finance and 
lobby reform. As a bunch of us out here, we are tired of our 
family farms being compromised away by political crop 
streaming. It is time to quit this. We have the largest hostile 
takeover going on in the world, and it is the corporate 
takeover of our Government, and we need campaign finance reform 
now. We need the vote to count and not the money. I will add 
that if we don't get this changed, corporate greed will be the 
downfall in this democracy. Jerry told me that on his way up 
here, and I believe it came from his heart.
    Family farmers are a lonesome and separated bunch these 
days. Our voice is not being heard. Farm Bureau and commodity 
groups don't represent us anymore. These are the people that 
endorse freedom of farms. They gave 80-cent hogs. They can't 
even honor a vote, the MPC, along with Veneman. They gave us 
cheap grain, more concentrations, and a lot less family farmers 
and pork producers. We need a voluntary checkoff program. I 
will keep that short. Let's vote with our money.
    Another thing I want to talk about quick is the Quick 
program. We need that targeted to family farmers, the corporate 
animal factories. They can use the record profits to comply 
within the laws of this nation and clean up their own messes. 
We need rural stability and growth along with ample supply of 
safe quality food raised by the right people, and that is the 
family farm. Keep up the fight. You guys are doing great.
    Senator Dayton. Thank you for joining us.
    [The prepared statement of Mr. Petersen can be found in the 
appendix on page 127.]

           STATEMENT OF WALT PRIGGE, BYRON, MINNESOTA

    Mr. Prigge. Senators Wellstone, Dayton, Representative 
Gutknecht, ladies and gentlemen, my name is Walt Prigge from 
Byron, Minnesota. I did not come here today to comment on the 
closed farm bill. I rather came here to pose a question to our 
United States Senators, that being: How do you reconcile your 
support for agriculture on your shoulders here today with your 
lack of support for infrastructure, capital infrastructure 
building that is obviously needed for agriculture in rural 
Minnesota, i.e., the DM&E Railroad and your lack of support for 
the infrastructure of the DM&E Railroad?
    Senator Dayton. Well, I don't oppose the DM&E Railroad. It 
has got to be structured so that, first of all, it hauls grain 
commodities rather than coal from Western States through our 
heartland. Second, it has got to be structured in a way that it 
doesn't get rammed down the throat of--whether it is downtown 
Rochester, which is the most important economic engine of 
Olmsted County, and certainly the Mayo Clinic and other 
operations there, and find some alternative route that is not 
going to wreak that kind of hardship on others. If you want to 
go up and watch the coal trains progress through northern 
Minnesota and bypass communities and spew coal dust and back up 
traffic and everything else, if you want to invite that down 
here, I wouldn't support that.
    Senator Wellstone. We could go back and forth on this. I 
don't disagree. I don't see anything in contradiction. It is 
interesting. I met with the DM&E people and have tried to get 
some clear language about their transportation of grain. I 
haven't seen any clear language and clear commitments that they 
are going to provide that transportation.
    I, second of all, think a whole lot of communities--and not 
just Rochester--have every reason in the world to worry about 
where they are going. Third of all, I will tell you something 
else. Part of the case for DM&E--and this is just an honest 
disagreement we have above and beyond the point you raised. I 
am glad you did it because you had every right to. The other 
issue is part of this is based upon the assumption that coal is 
a big part of our energy future. I see the big part of our 
energy future not more coal and more acid rain and more 
warnings in manuals that we shouldn't eat fish if we are small 
children or women expecting children. I see more of the future 
being ethanol, biodiesel, wind renewables. I am not at all 
convinced that this is a great project for the country. That is 
why I don't support it.
    Mr. Prigge. Just one further comment. Surface 
transportation has to see that the operation of the public 
railroad is in the public interest. Let's not kill it.
    Senator Dayton. I am not proposing to kill it. I am 
proposing to say, first of all, instead of bringing 30-, 40-
unit coal trains a day through downtown Rochester and other 
places, it would have a devastating affect on the quality of 
life and the economy, which is crucial to this region of the 
State. They have to find a routing design for it that is going 
to not only conform to common sense but also to conform to the 
way in which these communities are now structured. Rochester is 
too big and too important to be a railroad way station for unit 
coal trains.
    Unknown Speaker. Let's face it; you are selling out the 
farmers for the city of Rochester for their vote.
    Senator Dayton. I don't have to face anybody's vote for 5-
1/2 years, so I just dictate to my conscience and what is best. 
It is hard in these kinds of situations, but you make sure that 
these projects serve the rural interests and the agriculture 
industry. You are not being able to fill the bill of goods to 
bring unit coal trains from Western States right through here 
and down to La Crosse. Make sure you are talking about corn 
operations going through for Minnesota and soybean transport 
and not just unit coal trains. Whatever the project is.
    Mr. Gutknecht. We have been debating this for 2 years; we 
are not going to resolve it in 2 minutes. Thanks, Walt.
    Mr. Prigge. One more point.
    Senator Dayton. Last one.
    Mr. Prigge. Rochester also needs coal for its electrical 
generating plant. They use somewheres now between 600 and 900 
cars of coal a year, plus whatever we truck in, plus the energy 
that was generated elsewhere by coal. That becomes viable lines 
for the city of Rochester. Thank you.
    Senator Dayton. Thank you.

STATEMENT OF GARY JOACHIN, CLAREMONT, MINNESOTA, AND ON BEHALF 
                 OF MINNESOTA SOYBEAN GROWERS 
                          ASSOCIATION

    Mr. Joachim. Good afternoon. I would like to thank Senator 
Wellstone, Senator Dayton, and Representative Gutknecht for the 
opportunity to be at this hearing. I am Gary Joachim, a 
soybean, corn, and small independent hog farmer in Claremont, 
Minnesota, where I farm with my wife. I am here today on behalf 
of myself and also the Minnesota Soybean Growers Association. 
First, the Soybean Association looks forward to providing input 
on the Farm bill and which we have done in written testimony in 
the commodity provisions. What I would like to do today is talk 
about energy and biodiesel.
    As a soybean farmer, I am extremely optimistic about the 
role that plant-based annually renewable fuels like biodiesel 
will play in the national energy plan. Of course, as we all 
know, biodiesel is an environmentally friendly renewable 
alternative to petroleum-based diesel. It can be made from any 
vegetable oil, reprocessed animal fats. Just for that reason it 
is very environmentally friendly.
    Minnesota hopes to lead the way in the promotion of 
production of the biodiesel. When our legislature in Minnesota 
reconvenes next February, it is going to take up unfinished 
legislation that would require the inclusion of 2 percent 
biodiesel and diesel fuel sold in the State of Minnesota. On 
the national level, we strongly support and appreciate the 
legislation introduced by Senator Dayton, and that would 
encourage and prompt increased use of biodiesel fuels 
nationally. We think that Senator Dayton's bill will compliment 
your State effort and positively influence the Minnesota 
Legislature to adopt the 2-percent mandate. I also want to 
thank and express appreciation to Senator Wellstone, 
Representative Gutknecht, as well as basically the whole 
Minnesota Congressional contingent for their commitment to 
biodiesel. We have a goal of getting more of our energy from 
the Midwest and less from the Mideast. I don't think we are 
going to have to send the Navy and the Air Force out to guard 
our fuel as it goes from Minnesota to California.
    Fighting only decreases our soybean profitability. I don't 
think anyone in the U.S. Senate has done more than Senator 
Wellstone did to promote soy-based ink and originally for 
Government printing. It is now the industry standard. Soybeans 
wouldn't exist today if it wasn't for the investment farmers 
initially made in their checkoff, and the same is true for 
biodiesel where soybean farmers through their checkoff have 
invested millions of dollars.
    Incidentally, the soybean checkoff boards are feeling the 
pinch of these low soybean prices at least as much as the 
farmers because their income is based on farm value before LDPs 
and any other kind of payments.
    Thank you for this opportunity.
    [The prepared statement of Mr. Joachim can be found in the 
appendix on page 135.]
    Senator Dayton. Thank you, Gary.
    Senator Dayton. Welcome.

        STATEMENT OF DONOVAN STROM, FOUNTAIN, MINNESOTA

    MR. STROM: Thank you for speaking here today. My name is 
Donovan Strom, and I am from Fillmore County. People have 
talked about a fish kill; I am involved in one right now. About 
a year ago I got sweet corn from Seneca here out of Rochester, 
and the juice went in the creek and killed three fish, and MPCA 
and DNR said supposedly 650 minnows, which they don't even 
know. I have been threatened. I have been going through 
everything. I have had my name strung through the nut on the 
Austin Press. I mean, I don't see anybody else going through 
this. I had to sell my cattle in January in Lanesboro sales 
barn and on June 16th this summer. I can't blame them entirely, 
but when they come, it doesn't help you try to do a business. I 
had them living in my yard. They were like a KGB, and I felt 
like I was in jail for 2 weeks. I mean, we had to clean up 
these puddles and stuff. It wasn't fun. I don't want to be 
polluting; I don't think anybody else does. What you go through 
with these people is terrible. They promise things to you, and 
it doesn't follow through. There is a deal going through the 
works right now, and I don't know if I believe them or not. You 
got neighbors turning in neighbors, like with the Reiland deal 
and myself. It is a very poor system. I mean, there are other 
people that are doing the same things that we were doing, or I 
was doing. They were going to expand. I got caught in the fish 
kill, which is bogus.
    I mean, I did have a problem. I want to get it resolved. 
That is when you are a jerk and you are treated like a drug 
peddler or a murderer. It is got to be better than this.
    Thank you.
    Senator Dayton. Thank you.

       STATEMENT OF BERT BOWMAN, EDEN PRAIRIE, MINNESOTA

    Mr. Bowman. My name is Bert Bowman. I am pleased to be here 
with you, Senator Wellstone and Senator Dayton and 
Representative Gutknecht. I was born and raised in Brazil. I 
have a Dutch background. My grandparents was a farmer in the 
Netherlands but not doing too well with the farm economy, moved 
to Brazil, and I farmed--my grandfather farmed down there. My 
parents are still farming down there. In 1995 my brother 
decided to join the farm, and I didn't feel too comfortable 
with the situation at that time. I came to the States in the 
student program and met Mr. Peterson. We are still working 
together. The point is I am a farmer. No matter if you are a 
farmer in Brazil or here, we all need to make a profit. I wish 
for my parents to have a good price, and I wish for myself here 
with Mr. Peterson to have a good price. We are all here for 
profitability. How to do that?
    I am a new farmer. I hope to be a farmer and farming with 
LDP. It is a wonderful thing right now, but I don't wish to 
live on LDP the rest of my life. The price of those soybeans 
can still go down. How strong is the Government to keep pumping 
up money? How much can they give? Should they give my grain to 
Cargill and go to the Government and get all the money I need 
to survive? I don't feel comfortable. We need two things. 
Production management. How can we do it? I don't know if it is 
possible. I believe in production management, and we need to do 
so. To do so, we need cooperation with other countries. Brazil 
is promising already a 10- to 20-percent increase in soybeans. 
That is going to drive our price lower, and as well, how are we 
going to be able to have less production management without 
their cooperation? Cooperation is throughout the whole idea.
    We have to be aware of the destruction of competition. We 
need to worry about how much more land is opening in Brazil and 
other countries. They are destroying my dad in Brazil itself 
and here, too. Thank you for being here and listening to all of 
us.
    Senator Dayton. Thank you very much. A Brazilian farmer 
with Dutch heritage here in Stewartville. It is a one-world 
economy. Thank you.

          STATEMENT OF BRUCE BIEDERMAN, GRAFTON, IOWA

    Mr. Biederman. I am Bruce Biederman from Grafton, Iowa. I 
have what they call a zero-cost farm program. It is a zero-cost 
production loan program for all storable commodities. Basically 
I would have no specific program crops. Everything would be a 
program crop. Cotton, wheat, corn, whatever. I have been 
conferring with Dr. Neil Harlo down in Iowa State on this over 
the past year, and also Friday night I got a hold of former 
Secretary of Agriculture Bob Birkland, and I kind of model it a 
little bit after how he started it, and I tried to kind of fill 
in the problems that he had with it. The main thing different 
is that I would have no LDP; it would all be loan. After the 
first 9 months when the loan came due, the product would be--if 
it was not at or about loan rate, would be put into a reserve. 
The reserve would be used to regulate how much production would 
be encouraged the next year.
    I call it support and not subsidy, and I would support up 
to a certain-size farming operation, and then after you get so 
much under loan or in the reserve, you would be on your own, or 
you would not be supported anymore. You could switch crops. 
That is the main thing I want to try to do, is make every crop 
equally profitable so no matter what you do, you can either set 
aside and buildup your land or pick another crop, which would, 
of course, mean investment. That is the summation of what I 
have to say.
    Thank you.
    Senator Dayton. Thank you. You have to submit a copy to me.
    Senator Wellstone. You Iowa folks are smarter than I 
thought you would be. Welcome.

          STATEMENT OF TIM HENNING, LISMORE, MINNESOTA

    Mr. Henning. Senators, Congressman, my name is Tim Henning. 
I am from Lismore, Minnesota. I have been farming for 26 years. 
I have been through GATT, I have been through NAFTA, and now I 
am going through the WTO. Every time one comes up, I get 
screwed. Right now NAFTA is going on. I feed cattle. My cattle 
buyer came out, and he says, ``We are not going to be bidding 
for your cattle now because we can get Canadian cattle.'' He 
says, ``Have heart. In about 30 days we will have the Canadian 
cattle slaughtered, and we will be in the market for yours.''
    Today the Chinese told us to take our beans. We don't want 
them. Before the meeting I called home; soybeans are down 16 
cents. They announced that they will have 3 million metric tons 
of corn to go on the market. Corn is down 5 cents. My wife and 
my mother work off-the-farm jobs. What I lost on my 15,000 
bushels of beans and my 30,000 bushels of corn today I have to 
go home and tell my wife that she has to work the next 400 
hours for nothing. Please take that into consideration the next 
time you make a foreign trade deal.
    Thank you.
    Senator Dayton. Thank you. Powerful statement. Thank you.

    STATEMENT OF LAWRENCE M. PREDMORE, ROCHESTER, MINNESOTA

    Mr. Predmore. My name is Larry Predmore. I am not 
representing anybody. I came to listen. I raise beef cattle, 
and I am a large-animal veterinarian. When I started 20-some 
years ago, if I would have been at this meeting all afternoon, 
I would have had a lot of upset plans because I wasn't out 
there doing something. Nowadays--I got three or four calls I am 
going to have to do after this meeting, but they are all going 
to be hobby farmers. I am going to go over there after they got 
done working in town. They are supporting their hobbies by 
having jobs in town. I am not smart enough to know what the 
answer is, but I know if I was trying to make a living on the 
land we were farming, I would be a lot skinnier than I am. The 
vet business pays for my farming habit. My wife has a good job 
in town, so we are doing OK. It is not from farming. I am 
farming about 10 times what my grandfather used to farm, and I 
am a hobby farmer. I don't know what the answer is, you are 
going to have to go away from spending all your money on corn 
and beans and trying to figure out a way of getting some of 
this land out of production and get it into hay and into 
pasture, or whatever, and kind of cut down a lot on your 
erosion. One of my client's big worries and that is tangling 
with the Pollution Control Agency and other Government agency. 
We spend more time worrying about that than any of our other 
projects.
    That is basically what I have to say except I live in a 
little town south of here, and we have been there since 1853. 
When the railroad came through Rochester, we were all upset out 
there because it went that way instead of coming our way. Now 
they are mad because they want to improve it through town, and 
they want to shoot it out our direction. Again, one or the 
other would be fine, but I personally don't think that it is 
going to destroy Rochester if that train goes through right 
where it is been setting.
    Thank you.
    Senator Dayton. Thank you, Larry.
    Senator Dayton. Amber's father.

          STATEMENT OF BRIAN HANSON, RACINE, MINNESOTA

    Mr. Hanson. That is right. My name is Brian Hanson. I farm 
10 miles south of here, and I am Amber's proud father; that is 
correct. I am here to talk about biodiesel. As you have heard 
today, there are concerns in rural America, and as Senator 
Scheevel mentioned, we need to create opportunities. We can't 
just address all the concerns and think backward on some 
things. We need to be proactive and create opportunities for 
all of us, just as Mr. Scheevel said.
    One of these opportunities is definitely biodiesel. You 
have heard my daughter and others talk about biodiesel today, 
and I wanted to bring it to my personal experience on the farm 
with it. For 2 years now I have been blending biodiesel myself. 
Contrary to what I was told, it is not going to work. I get 
methosoy in barrels, so my economy scale is not very good right 
now, but I have been through 3,300 gallons of pure methosoy, 
which is the technical name, and I have been blending that with 
diesel on my farm and neighbors' farms and getting the word 
out. As they said, it isn't going to work in the winter. My 
tractors wouldn't run. Well, I plowed snow all winter with it, 
and I haven't had a problem yet if I take normal precautions. 
It is not easy to blend. That is true. It is very difficult. I 
have to pour it in the top of my fuel tank. That is pretty 
difficult. It is truly that simple. Energy balance. You heard 
mention of ratios earlier today of like 1.34. Biodiesel has an 
energy balance of 3.24 to 1. I would challenge any fuel to meet 
that. Maybe they can, but it is very good energy balance.
    My neighbors want to be a part of that to create a market 
so that we don't export all this oil or beans or do something 
with it. It is simple, and it is common sense. I like simple. 
We need to be proactive. There is frustration. We are 2 percent 
of the population. We fight amongst ourselves, but we need--
this is one step. I can't cross this room in one step. I have 
to take steps, go around chairs, or whatever. That is one step 
to the answer of cleaner air. I would like to thank especially 
you, Senator Dayton, for your legislation to promote biodiesel, 
and I would like to offer you my assistance in any way we can 
to help you reach the goal of getting biodiesel, even if you 
come to my farm and see that my tractors do run.
    Thank you.
    Senator Dayton. Thank you very much, Brian. I mean what I 
said. You and Amber can come out and testify, and you can show 
the members of the committee how to mix the stuff. That would 
be great. Thank you.
    Senator Dayton. Welcome.

  STATEMENT OF BILL McMILLIN, DAIRY FARMER, KELLOGG, MINNESOTA

    Mr. McMillin. Thank you, Senators and Congressman, for this 
opportunity. My name is Bill McMillin, and I am a dairy farmer 
with my wife near Kellogg, Minnesota, near the Mississippi 
River. I would like to give to you for the record a copy of 
Present Day Agriculture in Southern Minnesota. It was written 
by Geils Randall. He is a soil scientist and professor at the 
University of Minnesota. He does an excellent job of 
identifying the issues facing agriculture today here in 
southern Minnesota.
    I was going to spend a lot of my presentation on 
conservation, but it is been pretty well covered, so I will 
move on to something else. Adequate farm income continues to be 
a major issue. Now, lately I have been involved in a grass-
roots effort to try and bring collective bargaining into the 
marketplace. We have been trying to organize farmers, all the 
farm groups and farmers themselves, into looking at what 
options we have as far as collective bargaining in the 
marketplace.
    It seems as producers we are the first owner of the 
product, and we have the right to price it, and we haven't been 
exercising that right. That is something we need to start 
doing. If that doesn't work, I would like to see a cap put on 
commodity payments in the next Farm bill. I would like to see 
this cap probably in the $50,000 to $75,000 range. Maybe if we 
put this cap on, maybe we can free up some more money for 
conservation practices which are badly needed.
    I am in favor of globalization if globalization means that 
we could work together as a global community to provide a safe 
and abundant food supply for everyone and at the same time 
protect our resources for future generations.
    Thank you.
    [The prepared statement of Mr. McMillin can be found in the 
appendix on page 140.]
    Senator Dayton. Well said.
    Senator Dayton. Welcome.

        STATEMENT OF AL SCHACHT, ZUMBRO FALLS, MINNESOTA

    Mr. Schacht. Senator Dayton, Senator Wellstone, and 
Representative Gutknecht, my name is Al Schacht and I live in 
Hammond, Minnesota, not too far from here. I recently retired--
I shouldn't say recently--7 years ago from the U.S. Forest 
Service. I am interested in talking a little bit about the 
conservation programs that are in the Farm bill. In 1985 and 
1986, when the first Farm bill was written, it reauthorized and 
did away with a lot of the authorities and forced them and put 
them in the Farm bill. Those authorizations are extremely 
important that we continue them, and some of those are in the 
Farm Security Act but for stewardship came in a little later--
in the 1990's. The stewardship incentive programs, and forestry 
incentive programs, which is a fifth and sixth programs, they 
were in there. The forest legacy program. The German forestry 
program which I chaired the committee that wrote that in 1968, 
and also for the stewardship program, I was very instrumental 
in writing that and working with Congress to get the authority 
put together.
    The Farm bill of those conservation programs are working 
quite well, most of them. If they are working, don't throw them 
out with the bath water. We need to continue them. We need to 
enhance them. We need to add a little bit of authorizing 
funding authority to them so that when the Appropriations 
Committees deal with them, they do deal.
    I have two concerns that I want to bring up real quickly. 
One is on CRP. Its acres are expiring. Some expire, and then 
the re-authorization needs to take that up to 45 million. I 
would suggest 50 percent of it be put in trees. We have very 
good reason to do that because it doesn't come out of trees 
when it pulls out.
    The other thing is I would like to see a stronger role with 
conservation districts in the Farm bill.
    One quick comment on the House bill. It is silent to some 
of the programs that I just mentioned. They need to be included 
and the authorization needs to be upped considerably.
    Senator Dayton. Al, time is up.
    Mr. Schacht. One point. I noticed in the House bill, you 
have fire, a community fire program. That is good, 
Representative Gutknecht. I hope the Senate includes that. When 
I retired from the foresters, I worked directly with the chief 
of the Forest Service and was in charge of fire for the county. 
I hope you all can sympathize with what is happening in the 
West right now.
    [The prepared statement of Mr. Schacht can be found in the 
appendix on page 141.]
    Senator Dayton. Thank you, sir.
    Senator Dayton. You get an award for patience here. You are 
the last witness. Thank you.

         STATEMENT OF ROD NELSON, CHATFIELD, MINNESOTA

    Mr. Nelson. My name is Rod Nelson. I am a family farmer. I 
live approximately 10 miles east of here, and I represent 
America. We need to keep our family farmers. As we look back, 
one of the things that I am afraid is going to happen is that 
we are just going to end up with kind of an extension of the 
old freedom-to-farm program. We are going to get 10 years of 
this, do a little bit of tweaking, throw a little conservation 
in there, and then we are going to have 10 more years. That 
just isn't working. Anybody that can look at freedom to farm 
and say it has been successful, I just don't know where they 
are coming from. It is the most costly farm program in history 
by $10 billion, and yet we have the lowest prices that--well 
below the cost of production. I don't see where the success is 
in this program. We need to--there is no other business in the 
world that runs a business without some kind of a supply 
management program.
    If General Motors has got cars backed up the wazoo, they 
don't keep making more cars. They shut down for 2 weeks. If 
John Deere has factories backed up, they don't make more 
tractors. They shut down. The gentleman from Brazil, he had a 
good point. We are in a global marketplace. I know there are a 
lot of you that say, ``Well, supply management won't work.'' 
Maybe we have to look at this from a world perspective. Maybe 
we have to try to join together with other major exporters of 
the world to maybe do something with this supply.
    I see I got 30 seconds. I got a son that is 16 years old, 
and he is just the best son a father could have. He is a 
straight A student, excellent athlete, and he loves to work 
with his dad on the farm. I got to the point where I am not 
sure that I want to encourage him to farm anymore. He can do 
anything and make a much better living even though the farm 
life is probably the ideal life in America. We need to make 
some changes. We need to rewrite this farm program. We need to 
get some prices. I thank you for listening to us. This is 
grass-roots politics at its best.
    Thank you.
    Senator Dayton. Thank you very much. I would like to give 
time for some brief concluding remarks. We will go to Senator 
Wellstone.
    Senator Wellstone. I apologize. I am going to speak briefly 
and then leave. I want to--somebody I see in the back of the 
room. Thank you, Catholic Rural Life. Thank you for being here 
as well and for all of your work. Archie Bauman is here. I 
couldn't get him to speak, but I want to thank Archie Bauman 
for years and years of speaking out for family farmers. Archie, 
stand up. We are talking about a great, popular man.
    I would like to thank my colleagues for being here, Senator 
Dayton, Congressman Gutknecht. I would like to thank all of you 
for being here. I would like to say that I absolutely agree 
with the last point that was made, and we all express our own 
opinion. I have always believed that freedom to farm is freedom 
to fail. I want a new farm bill. I want the focus to be on 
producers having a leverage to get a price in the marketplace. 
I don't want us to continue to rely on the Government payments. 
I have heard a lot about conservation. Southeast Minnesota has 
been the hotbed of land stewardship in Minnesota. I would like 
to thank so many of you for leading the way. You have had a 
prophetic voice--the Bishop was here earlier--in that 1996 
statement. The Catholic Bishop talked about how we are all 
strangers, but strangers and guests on this land, and we should 
leave it better. That is the direction that we are heading in.
    Finally, I just would like to say to you, I heard it 
earlier about the importance. It doesn't matter what it is, 
whether it is dairy or whether we are talking about corn 
growers or wheat or whether we are talking about livestock. 
There has to be a strong--above and beyond the conservation, 
above and beyond a loan rate or leverage for farmers to get a 
decent price, there has to be some strong antitrust action. 
There has to be some competition. We have to go after the 
conglomerates. I wished I could guarantee success, but the only 
thing I can say--I am speaking for myself. Senator Dayton is 
giving me a chance to finish up. I can certainly say one thing. 
Somebody used it earlier. I certainly will fight with all of my 
might with every way I know how to make sure that this farm 
bill on the Senate side is as strong a piece of legislation as 
it can be. Many of us have been through it before. It has been 
going on. We can't afford another shakeout of family farmers. 
Then we won't have any left. This is the time to do it. We will 
just give it everything we have. We are going to need a lot of 
you all. Before it is all over, I am hoping that around the 
country there are going to be a lot of huge gatherings in a lot 
of States putting pressure on all reps, all Senators, 
Democrats, Republicans, and others to be there for Midwest 
agriculture. To be there for family farmers, to give us a fair 
price, to have the land stewardship, to have the real 
competition, to have an energy policy that makes sense for our 
country. We can do it. We are just going to have to fight like 
hell for it.
    Thank you, everyone.
    Senator Dayton. Congressman Gutknecht.
    Mr. Gutknecht. Listen, again, I want to thank the two 
Senators for hosting this, particularly you, Senator Dayton. It 
is always tough to follow Senator Wellstone because he does a 
great job of firing up the crowd. We are going to have some 
differences as we try to work this out between the House and 
the Senate, and there are going to be differences over how we 
go on the conservation titles. There are going to be 
differences whether we are just going to have a loan rate 
program in terms of commodity support programs, or we are going 
to go to the three-piece suit that we have proposed in the 
House.
    I hope you all understand that there are a couple of really 
important facts as we deal with this at the Federal level. The 
first is it takes 218 votes in the House; the second is it 
takes 51 votes in the Senate; and, finally, we need a 
Presidential signature before anything can change. Just 
listening today, I am sure all of you realize that while there 
are some levels of agreements, there are certainly strong 
disagreements on some of the things that are going to happen. 
There is not an absolute consensus among farmers. It is more 
than just railroads that we sometimes disagree about. In order 
to have any kind of farm policy at all, there are going to have 
to be some accommodations.
    We are certainly willing to work with the Senate, and I am 
delighted that we were able, at least on the House side, to 
work on very bipartisan basis. Because the future of 
agriculture is not a Republican issue. It is not a matter of 
right versus left. It is really right versus wrong. We really 
have seen in the past couple years a breakdown in world 
markets. When you have overproduction for 4 consecutive years, 
I really don't know what we could have done in terms of farm 
policy that would have prevented that. We do share one thing in 
common, and that is that the future of agriculture is 
incredibly important to the economy of southeastern Minnesota 
and, as you have heard today, to the soul of the people of this 
country. Because there is something about farmers that are very 
special. I hope we never lose it. We will do our best at the 
Federal level to try and keep that flame, that flickering 
flame, of hope alive in American farmers' hearts so that next 
year perhaps can be a little better than this one.
    Thank you so much.
    Senator Dayton. I want to thank Paul and Gil for being part 
of this. I want to thank all of you for being here. Thank you 
for our patience. I have now been 7 months on the Senate 
Agriculture Committee as the Senator, and I had great 
admiration for farmers before I joined the committee, and now I 
must say I am in awe. I have never seen an array of such 
complicated, interrelated, interwoven programs that you all 
have to contend with every day and every year of your life. 
Some of these universities that give degrees for the 
experience, life experience and so forth. If that were the case 
with agriculture, every farmer with 10 years of success or even 
survival would have to get a Ph.D. in Government programs and a 
master's degree in applied economics and a bachelor's degree in 
meteorology. Then every year you are asked to take the kind of 
financial risks that investment advisors and stockbrokers take, 
and for all that you get paid less than minimum wage. I mean, 
it is just unbelievable to me how involved all of this stuff 
is.
    Having said that, that is where we are. I am humbled by the 
fact that for 60 years, people smarter than I am, more 
experienced than I am from both the political parties and all 
political persuasions, have tried to get these programs right 
with good intentions, and here we are today.
    This kind of input, a hearing like this for 3 hours, shows, 
first of all, the real expertise with people like yourselves 
who are the farmers and producers and those involved. Second, 
that there are a lot of outstanding ideas. I hope we can 
synthesize all that and work together with the House and come 
up with something that is going to deal especially with getting 
prices in the marketplace to levels where farmers can make a 
good profit in the marketplace, which, coming from a business 
family, I know, is what any businessman or woman needs to 
survive. Somebody said to benefit the taxpayers, whatever the 
shortcomings of the previous programs, we have to get back to a 
market-based agricultural economy for this country and turn you 
loose to produce as efficiently as anyone in the world. I look 
forward to working with you and Gil and Paul as well.
    Thank you very, very much, and we will conclude the 
hearing. Thank you. Have a good day.
    [Whereupon, at 4:20 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                            August 20, 2001




=======================================================================

[GRAPHIC] [TIFF OMITTED] T5326.001

[GRAPHIC] [TIFF OMITTED] T5326.002

[GRAPHIC] [TIFF OMITTED] T5326.003

[GRAPHIC] [TIFF OMITTED] T5326.004

[GRAPHIC] [TIFF OMITTED] T5326.005

[GRAPHIC] [TIFF OMITTED] T5326.006

[GRAPHIC] [TIFF OMITTED] T5326.007

[GRAPHIC] [TIFF OMITTED] T5326.008

[GRAPHIC] [TIFF OMITTED] T5326.009

[GRAPHIC] [TIFF OMITTED] T5326.010

[GRAPHIC] [TIFF OMITTED] T5326.011

[GRAPHIC] [TIFF OMITTED] T5326.012

[GRAPHIC] [TIFF OMITTED] T5326.013

[GRAPHIC] [TIFF OMITTED] T5326.014

[GRAPHIC] [TIFF OMITTED] T5326.015

[GRAPHIC] [TIFF OMITTED] T5326.016

[GRAPHIC] [TIFF OMITTED] T5326.017

[GRAPHIC] [TIFF OMITTED] T5326.018

[GRAPHIC] [TIFF OMITTED] T5326.019

[GRAPHIC] [TIFF OMITTED] T5326.020

[GRAPHIC] [TIFF OMITTED] T5326.021

[GRAPHIC] [TIFF OMITTED] T5326.022

[GRAPHIC] [TIFF OMITTED] T5326.023

[GRAPHIC] [TIFF OMITTED] T5326.024

[GRAPHIC] [TIFF OMITTED] T5326.025

[GRAPHIC] [TIFF OMITTED] T5326.026

[GRAPHIC] [TIFF OMITTED] T5326.027

[GRAPHIC] [TIFF OMITTED] T5326.028

[GRAPHIC] [TIFF OMITTED] T5326.029

[GRAPHIC] [TIFF OMITTED] T5326.030

[GRAPHIC] [TIFF OMITTED] T5326.031

[GRAPHIC] [TIFF OMITTED] T5326.032

[GRAPHIC] [TIFF OMITTED] T5326.033

[GRAPHIC] [TIFF OMITTED] T5326.034

[GRAPHIC] [TIFF OMITTED] T5326.035

[GRAPHIC] [TIFF OMITTED] T5326.036

[GRAPHIC] [TIFF OMITTED] T5326.037

[GRAPHIC] [TIFF OMITTED] T5326.038

[GRAPHIC] [TIFF OMITTED] T5326.039

[GRAPHIC] [TIFF OMITTED] T5326.040

[GRAPHIC] [TIFF OMITTED] T5326.041

[GRAPHIC] [TIFF OMITTED] T5326.042

[GRAPHIC] [TIFF OMITTED] T5326.043

[GRAPHIC] [TIFF OMITTED] T5326.044

[GRAPHIC] [TIFF OMITTED] T5326.045

[GRAPHIC] [TIFF OMITTED] T5326.046

[GRAPHIC] [TIFF OMITTED] T5326.047

[GRAPHIC] [TIFF OMITTED] T5326.048

[GRAPHIC] [TIFF OMITTED] T5326.049

[GRAPHIC] [TIFF OMITTED] T5326.050

[GRAPHIC] [TIFF OMITTED] T5326.051

[GRAPHIC] [TIFF OMITTED] T5326.052

[GRAPHIC] [TIFF OMITTED] T5326.053

[GRAPHIC] [TIFF OMITTED] T5326.054

[GRAPHIC] [TIFF OMITTED] T5326.055

[GRAPHIC] [TIFF OMITTED] T5326.056

[GRAPHIC] [TIFF OMITTED] T5326.057

[GRAPHIC] [TIFF OMITTED] T5326.058

[GRAPHIC] [TIFF OMITTED] T5326.059

[GRAPHIC] [TIFF OMITTED] T5326.060

[GRAPHIC] [TIFF OMITTED] T5326.061

[GRAPHIC] [TIFF OMITTED] T5326.062

[GRAPHIC] [TIFF OMITTED] T5326.063

[GRAPHIC] [TIFF OMITTED] T5326.064

[GRAPHIC] [TIFF OMITTED] T5326.065

[GRAPHIC] [TIFF OMITTED] T5326.066

[GRAPHIC] [TIFF OMITTED] T5326.067

[GRAPHIC] [TIFF OMITTED] T5326.068

[GRAPHIC] [TIFF OMITTED] T5326.069

[GRAPHIC] [TIFF OMITTED] T5326.070

[GRAPHIC] [TIFF OMITTED] T5326.071

[GRAPHIC] [TIFF OMITTED] T5326.072

[GRAPHIC] [TIFF OMITTED] T5326.073

[GRAPHIC] [TIFF OMITTED] T5326.074

[GRAPHIC] [TIFF OMITTED] T5326.075

[GRAPHIC] [TIFF OMITTED] T5326.076

[GRAPHIC] [TIFF OMITTED] T5326.077

[GRAPHIC] [TIFF OMITTED] T5326.078

[GRAPHIC] [TIFF OMITTED] T5326.079

[GRAPHIC] [TIFF OMITTED] T5326.080

[GRAPHIC] [TIFF OMITTED] T5326.081

[GRAPHIC] [TIFF OMITTED] T5326.082

[GRAPHIC] [TIFF OMITTED] T5326.083

[GRAPHIC] [TIFF OMITTED] T5326.084

[GRAPHIC] [TIFF OMITTED] T5326.085

[GRAPHIC] [TIFF OMITTED] T5326.086

[GRAPHIC] [TIFF OMITTED] T5326.087

[GRAPHIC] [TIFF OMITTED] T5326.088

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            August 20, 2001



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T5326.089

[GRAPHIC] [TIFF OMITTED] T5326.090

[GRAPHIC] [TIFF OMITTED] T5326.091

[GRAPHIC] [TIFF OMITTED] T5326.092

[GRAPHIC] [TIFF OMITTED] T5326.093

[GRAPHIC] [TIFF OMITTED] T5326.094

[GRAPHIC] [TIFF OMITTED] T5326.095

[GRAPHIC] [TIFF OMITTED] T5326.096

[GRAPHIC] [TIFF OMITTED] T5326.097

[GRAPHIC] [TIFF OMITTED] T5326.098

[GRAPHIC] [TIFF OMITTED] T5326.099

[GRAPHIC] [TIFF OMITTED] T5326.100

[GRAPHIC] [TIFF OMITTED] T5326.101

[GRAPHIC] [TIFF OMITTED] T5326.102

[GRAPHIC] [TIFF OMITTED] T5326.103

[GRAPHIC] [TIFF OMITTED] T5326.104

[GRAPHIC] [TIFF OMITTED] T5326.105

[GRAPHIC] [TIFF OMITTED] T5326.106

[GRAPHIC] [TIFF OMITTED] T5326.107

[GRAPHIC] [TIFF OMITTED] T5326.108

[GRAPHIC] [TIFF OMITTED] T5326.109

[GRAPHIC] [TIFF OMITTED] T5326.110

[GRAPHIC] [TIFF OMITTED] T5326.111

[GRAPHIC] [TIFF OMITTED] T5326.112

[GRAPHIC] [TIFF OMITTED] T5326.113

[GRAPHIC] [TIFF OMITTED] T5326.114

[GRAPHIC] [TIFF OMITTED] T5326.115

[GRAPHIC] [TIFF OMITTED] T5326.116

[GRAPHIC] [TIFF OMITTED] T5326.117

[GRAPHIC] [TIFF OMITTED] T5326.118

[GRAPHIC] [TIFF OMITTED] T5326.119

[GRAPHIC] [TIFF OMITTED] T5326.120

[GRAPHIC] [TIFF OMITTED] T5326.121

[GRAPHIC] [TIFF OMITTED] T5326.122

[GRAPHIC] [TIFF OMITTED] T5326.123

[GRAPHIC] [TIFF OMITTED] T5326.124

[GRAPHIC] [TIFF OMITTED] T5326.125

[GRAPHIC] [TIFF OMITTED] T5326.126

[GRAPHIC] [TIFF OMITTED] T5326.127

[GRAPHIC] [TIFF OMITTED] T5326.128

[GRAPHIC] [TIFF OMITTED] T5326.129

[GRAPHIC] [TIFF OMITTED] T5326.130


</pre></body></html>
